U.S. Department of Education
Office of Inspector General


Semiannual Report
to Congress, No. 65
April 1, 2012–September 30, 2012
Office of Inspector General
Kathleen S. Tighe
Inspector General

November 2012

This report is in the public domain. Authorization to reproduce it in
whole or in part is granted. While permission to reprint this publication
is not necessary, the citation should be: U.S. Department of Education,
Office of Inspector General, Semiannual Report to Congress, No. 65.




Please Note:
The Inspector General’s Semiannual Report to Congress, No. 65 is available on the
ED OIG Web site at http://www2.ed.gov/about/offices/list/oig.
    Message to Congress
On behalf of the U.S. Department of Education (Department) Office of Inspector
General (OIG), I present this Semiannual Report on the activities and
accomplishments of this office from April 1, 2012, through September 30, 2012.
The audits, inspections, investigations, and related work highlighted in the report
are products of our continuing commitment to promoting accountability,
efficiency, and effectiveness in our oversight of the Department’s programs and
operations.

We stated in our Fiscal Year (FY) 2012 Annual Plan that we would focus our work
on accountability and results. As you will read in the pages of this report, we met
this goal. Our audit and inspection work identified needed improvements in each
of the programs and operations we reviewed. By making these improvements, the
Department will have more assurance that those programs or operations are
achieving the desired results.

Our investigative efforts led to an unprecedented number of criminal actions
taken against high-ranking school officials. These educators used their positions
of trust for personal gain and cheated the students they promised to serve. Our
mission and our goals are about results, and I am proud of the results we
delivered over the last 6 months. For example, as highlighted in this report:

     Criminal actions were taken against 10 high-ranking school officials,
      including superintendents and school board officials. This included the
      former superintendent of the El Paso Independent School District in Texas
      who pled guilty to charges that he directed employees to change student
      records, reclassify student grade levels, and take other actions to make it
      appear that the district was meeting or exceeding its Adequate Yearly
      Progress in order to receive financial bonuses stipulated in his contract.

     One of our audits found that the Department did not effectively oversee
      and monitor charter school grants and did not have an adequate process to
      ensure that State educational agencies effectively oversaw and monitored
      their subgrants. As a result, the Department does not have assurance that
      charter school grantees comply with applicable requirements or follow
      through on required actions.

     Eight charter school leaders found themselves on the wrong side of the
      law, including the founder of four charter schools in the Philadelphia area
      who was indicted for allegedly defrauding three of those schools of more
      than $6.5 million. In addition, the two top officials of the New Media
      Technology Charter School in Pennsylvania were sentenced to prison for
      diverting more than $522,000 in school funds.

     We determined that the Department’s Rehabilitation Services
      Administration did not provide the level of oversight of Centers for
      Independent Living required by the Rehabilitation Act of 1973, which
      leaves the Department unsure as to whether the Centers are meeting
      required program goals.
     Touro College agreed to pay the Department $7 million as a result of an
      OIG audit that found that the school did not fully comply with Federal
      student aid institutional and program eligibility requirements.

     An inspection found that the Department’s nonprocurement suspension and
      debarment process was inefficient and lacked characteristics the
      Government Accountability Office identified as common in effective
      suspension and debarment programs.

     Another audit found that the Department’s resolution system for external
      OIG audits was not effective and audits were not resolved in a timely
      manner, which has affected the potential recovery of funds and has likely
      created delays in the development and implementation of corrective
      action by auditees so that weaknesses in program management are not
      being addressed.

In this report, you will find more information on these actions, as well as
summaries of other reports issued over the last 6 months. This includes our
nationwide results-focused audit on how 22 school districts spent the American
Recovery and Reinvestment Act and Education Jobs Funds. We look to issue
additional audits in the next few months to provide insights into the key
challenges associated with implementing the stimulus grant programs. These
insights could help improve implementation and oversight of any future similar
programs.

One last issue we highlight in this report is our work involving data analytics—a
tool we use to identify emerging risks and patterns of fraud. During this reporting
period, we developed three data analytic tools that are helping us proactively
identify student aid fraud rings, better ensure the reliability of grantee data, and
more readily assess grantee risk. With the demand for a more efficient
government so high, integrating these tools into our audit and investigative
efforts is critical.

I greatly appreciate the interest and support of this Congress, Secretary Duncan,
and Deputy Secretary Miller in our efforts. I look forward to working with you in
meeting the challenges and opportunities that lie ahead.




Kathleen S. Tighe
Inspector General
                              Table of Contents




            1                               7                           15
Goal 1:     Improve the         Goal 2:     Strengthen       Goal 3: Protect the
Department’s ability to         the Department’s efforts     integrity of the
effectively and efficiently     to improve the delivery of   Department’s programs
implement its programs to       student financial            and operations by
promote educational             assistance.                  detecting and preventing
excellence and                                               vulnerabilities to fraud,
opportunity for all                                          waste, and abuse.
students.




           25                              35                           37
Goal 4:     Contribute to       Annexes                      Required Tables
improvements in
Department business
operations.
Goal 1: Improve the Department’s ability to
        effectively and efficiently implement its
        programs to promote educational
        excellence and opportunity for all
        students.
        Our first strategic goal contributes to our statutory mission—to promote the
        efficiency, effectiveness, and integrity of the U.S. Department of Education’s
        (Department) programs and operations. To achieve this goal, we conduct audits,
        inspections, investigations, and other activities. In our audit and inspection work,
        we evaluate program results, assess internal controls, identify systemic weaknesses,
        and make recommendations for improvement in the Department’s programs and
        operations. In our investigative work, we focus on serious allegations of fraud and
        corruption and work with prosecutors to hold accountable those who steal, abuse,
        or misuse education funds.



                                                        Audits
                                      Work related to this goal over the last 6 months involves the American Recovery
                                      and Reinvestment Act of 2009 (Recovery Act). Recovery Act funding, which
                                      provided more than $97 billion for existing and new education-related grant
                                      programs, ended at the close of FY 2011. A second education stimulus, the
                                      Education Jobs Fund (Ed Jobs), was enacted in 2010 and provided another
                                      $10 billion to help local educational agencies (LEAs) hire, retain, or rehire
                                      employees who provided school-level educational and related services, ended at
                                      the close of FY 2012. The Office of Inspector General (OIG) has conducted a
                                      significant amount of work involving these programs and continued to do so
                                      throughout this reporting period. Results of our efforts are below.

                                      Over the last 6 months, we issued two Recovery Act audit reports: a national
Recovery Act                          perspective on how school districts used Recovery Act and Ed Jobs funds and an
                                      audit determining whether Centers for Independent Living received adequate
                                      monitoring and oversight, met evaluation standards, and complied with applicable
                                      program and Recovery Act reporting requirements. Summaries of these audits are
                                      below. We also continued with the fourth phase of our Recovery Act work,
                                      reviewing final expenditures at multiple LEAs in five States. We are also
                                      compiling data for two “lessons learned” reports—one multiagency OIG review to
                                      identify best practices and challenges in implementing and administering
                                      Recovery Act programs and a second Department-specific review to provide
                                      insights into the key challenges associated with implementing the Recovery Act
                                      and the Department’s and its grantees’ responses to those challenges. We will
                                      report the findings of these efforts once completed.

                                      School Districts’ Use of Recovery Act Funds
                                      This report highlighted how selected school districts spent Federal funds awarded
                                      under the Recovery Act for the State Fiscal Stabilization Fund, Education
                                      Stabilization Fund (ESF); Elementary and Secondary Education Act of 1965, as
                                      amended, Title I, Part A (Title I); and the Individuals with Disabilities Education
                                      Act, Part B, Section 611 (IDEA) grant programs and under separate legislation for
                                      the Ed Jobs grant program. We refer to these collectively as “stimulus funds.”
                                      For this audit, we judgmentally selected 1 school district in each of 22 States
                                      based on enrollment, geographic location, and various fiscal factors. The

2   Office of Inspector General Semiannual Report
22 school districts ranged in size from about 13,500 students to about
982,000 students, and represented a cross section of characteristics such as
economic condition, poverty level, and level of Federal support. Below is a
summary of our findings.

    What Did School Districts Spend Stimulus Funds On? Almost two-thirds of
    the 22 districts spent or planned to spend all of their ESF funds on personnel-
    related activities such as salaries and benefits for teachers and other staff.
    The remaining districts spent or planned to spend at least a portion of their
    ESF funds on nonpersonnel activities such as career and technical education
    courses, technology, and new construction. The 22 districts spent or planned
    to spend all of their Ed Jobs funds on personnel-related activities as required
    by the statute. In contrast, the 22 districts spent or planned to spend about
    half of their Recovery Act Title I and IDEA funds on personnel costs and about
    half on nonpersonnel costs that were generally focused on student academic
    achievement, teacher performance, or parental support.

    Will School Districts Spend All the Stimulus Funds? As of
    December 31, 2011, all 22 districts reported that they had spent all available
    ESF grant funds, more than 99 percent of available Recovery Act Title I and
    IDEA funds, and more than 80 percent of available Ed Jobs funds.

    What Influenced How School Districts Spent the Funds? A variety of factors
    influenced how districts spent stimulus funds, including Federal requirements
    covering use of funds, State actions and budget decisions, each district’s
    fiscal condition and educational priorities, and concerns about funding cliffs.
    As a result, the districts generally used the ESF and Ed Jobs grants to maintain
    existing services and activities; many used the grant money to offset or
    restore reductions in State and local funding.

    What Results Did School Districts Identify? School district officials identified
    positive results from spending stimulus funds, such as creating and retaining
    jobs, improving student academic achievement, or pursuing educational
    reforms. Officials from several districts said those services and activities
    would not have been possible without the supplemental funding. However,
    measuring and interpreting results can be challenging. For example, oversight
    agencies and district officials have questioned the validity and accuracy of
    jobs data that stimulus fund recipients are required to report. Additionally,
    improvements in an area such as student academic achievement may be
    attributable to a variety of factors, only one of which may have been an
    activity or program supported by stimulus funds.

    Will School Districts Face Funding Cliffs? A funding cliff occurs when a
    school district is unable to sustain activities or services after stimulus funds
    are no longer available. Most officials said they expected to face moderate to
    significant funding cliffs after stimulus funds were no longer available unless
    State or local revenues returned to prerecession levels in the near future. In
    some cases, districts knowingly used stimulus funds for unsustainable
    activities because they wanted more students to benefit from the one-time
    infusion of supplemental funds. The presence of a funding cliff does not
    mean that a district’s use of stimulus funds was unsuccessful or did not
    achieve the intended result. District officials planned to continue essential

                                           Office of Inspector General Semiannual Report   3
                                           services to the extent possible by prioritizing spending and reducing costs, but
                                           in some cases districts may have to lay off staff or reduce educational
                                           services.

                                      The report on school districts’ use of Recovery Act funds included a 2-page
                                      summary for each of the 22 districts included in our review. It also highlighted
                                      several observations that may provide insight for policymakers if another stimulus
                                      program for elementary and secondary education were considered in the future.
                                      This included an observation involving performance measurements. Recipients of
                                      the stimulus funds had to comply with reporting requirements specified in the
                                      Recovery Act, such as quarterly reports on the status of grant funds and the
                                      number of jobs created and retained. Despite efforts to collect performance
                                      information, measuring performance was problematic. Specifically, the
                                      22 districts in our review most commonly identified the number of jobs supported
                                      with stimulus funds as a positive result. However, the reported number of jobs
                                      did not always represent new or specific jobs. Some districts used the stimulus
                                      funds in place of other funds that previously supported personnel costs. The jobs
                                      that these districts reported as paid by stimulus funds might not have been in
                                      jeopardy.

                                      Centers for Independent Living
                                      We found that the Rehabilitation Services Administration (RSA), the Departmental
                                      unit responsible for administering the Centers for Independent Living (CIL)
                                      program, did not provide the level of oversight of CILs that is required by the
                                      Rehabilitation Act. We also found partially supported performance information
                                      reports and inadequately documented files at the 12 CILs we reviewed. As a
                                      result of these inadequacies, RSA did not have sufficient, accurate information to
                                      provide required oversight. Without appropriate oversight, the Department
                                      cannot ensure that CIL program goals are being met and that it is operating as
                                      intended. Specifically, for the 12 CILs we reviewed, we found the following.

                                             RSA did not conduct onsite monitoring reviews of CILs as required and did
                                              not randomly select CILs for review. The Rehabilitation Act requires RSA to
                                              randomly select and conduct an onsite compliance review of at least
                                              15 percent of CILs receiving funds. We found that RSA conducted 40 onsite
                                              reviews, well below the 153 that were required during the 3 years covered
                                              in our audit.

                                             RSA lacked accurate documentation from the CILs. Although we found that
                                              all 12 CILs offered services that met the requirements of the core services
                                              defined in the Rehabilitation Act, we were unable to determine whether
                                              most of the CILs met selected evaluation standards and assurances as they
                                              did not maintain adequate evidence of compliance.

                                             Eight of the 12 CILs did not fully comply with reporting requirements of the
                                              Recovery Act. Eighteen of 26 reports from the 8 CILs were missing data
                                              elements or were untimely, and 5 of the CILs used an inaccurate
                                              methodology for calculating jobs created or retained.

                                             Although most CILs’ expenditures were allowable and adequately
                                              supported, we identified about $39,100 in inadequately documented
                                              expenditures at three CILs involving payroll and other costs.

4   Office of Inspector General Semiannual Report
               We recommended that RSA explore alternatives to assist in meeting the onsite
               monitoring requirements of the Rehabilitation Act, require CILs to verify that they
               have established or enhanced policies and procedures to maintain documentation
               supporting their compliance with statutory requirements, require the five CILs to
               follow Office of Management and Budget (OMB) guidance in calculating Recovery
               Act jobs created or retained for future reporting periods, and require the three
               CILs to provide supporting documentation for about $39,100 in payroll and other
               costs or return the funds to the Department. The Department accepted all of our
               findings and recommendations.



                          Investigations
               During this reporting period, OIG investigators continued to examine allegations of
               waste, fraud, and abuse involving Recovery Act funds. Since the enactment of
               the Recovery Act, OIG has initiated more than 180 criminal investigations of
               various schemes involving the improper uses of Recovery Act funds. To date, our
               Recovery Act-related investigations have resulted in more than 120 judicial
               actions, which we estimated has saved the Department nearly $8 million.

               The following are summaries of some of our investigations, some of which
Recovery Act   involved Federal student aid funds, a portion of which was either applied for or
               obtained after passage of the Recovery Act. The Recovery Act increased funding
               for the Pell Grant program.

               Owner and Employees of USA Beauty School Pled Guilty
               (New York)
               The owner and four employees of USA Beauty School pled guilty to fraudulently
               obtaining Federal Pell Grant funds. The two falsified student aid applications and
               supporting documentation, including attendance records and high school
               diplomas, to enroll ineligible students into the school for the purposes of
               obtaining Federal student aid. Since 2006, the school has received more than
               $4 million in Pell Grant funds.

               Former Executive Director of a Center for Independent
               Living Charged (Florida)
               The former executive director of the now-defunct Center for Independent Living
               of Southwest Florida was charged with embezzlement and grand theft. The
               executive director allegedly embezzled more than $900,000 from the Center,
               including funds provided to the Center through the Recovery Act, to fund an
               extravagant lifestyle. The Center closed in 2011 when it no longer had any money
               with which to operate.

               Whistleblower Reprisal (Arkansas)
               Our investigation found that a school district contractor in Arkansas terminated an
               employee in reprisal for the employee reporting that the contractor did not pay
               prevailing wages on school construction projects funded by the Recovery Act.
               Following our investigation, the Secretary issued a final determination that the
               contractor had reprised against the employee in violation of the Recovery Act and


                                                         Office of Inspector General Semiannual Report   5
                                      ordered the contractor to reinstate the employee, pay him back pay, and pay any
                                      wages owed to employees. The contractor has appealed the Secretary’s order to
                                      the U.S. Court of Appeals for the Eighth Circuit.




                                             OTHER ACTIVITIES
           Participation on Committees, Work Groups, and Task Forces

           Departmental Groups
                    Department Recovery Act Metrics and Monitoring Team. OIG participates in an advisory
                     capacity on this team that meets periodically to coordinate Recovery Act funds oversight
                     efforts and develop reports for posting on the Recovery.gov Web site.

           Inspector General Community
                    Recovery Accountability and Transparency Board (Recovery Board). Inspector General Tighe is
                     the Chair of the Recovery Board. OIG staff members also participate in a work group
                     composed of all of the OIGs that provide Recovery Act oversight.

           Federal and State Law Enforcement-Related Groups
                    U.S. Department of Justice’s Financial Fraud Enforcement Task Force Recovery Act,
                     Procurement, and Grant Fraud Working Group. The Inspector General co-chairs and the OIG
                     participates in this working group focused on improving efforts across the Government to
                     investigate and prosecute significant financial crimes involving Recovery Act funds.

           Other
                    Recovery Act Whistleblower Training. OIG attorneys and an investigator trained all OIG
                     investigators to prepare them for taking over whistleblower investigations in FY 2013 from
                     personnel who are no longer funded by the Recovery Act. The OIG has received more than
                     100 whistleblower complaints since 2009, more than triple that of any other OIG.




6   Office of Inspector General Semiannual Report
Goal 2: Strengthen the Department’s efforts to
        improve the delivery of student financial
        assistance.
        This goal addresses an area that has long been a major focus of our audit,
        inspection, and investigative work—the Federal student financial aid programs.
        These programs are inherently risky because of their complexity, the amount of
        funds involved, the number of program participants, and the characteristics of
        student populations. Our efforts in this area seek not only to protect Federal
        student aid funds from waste, fraud, and abuse, but also to protect the interests of
        the next generation of our nation’s leaders—America’s students.




                                             Audits and Reviews
                                      With more than 6,200 postsecondary institutions, about 2,900 lenders,
                                      33 guaranty agencies, and numerous third party servicers participating in the
                                      Federal student aid programs, OIG audits and other reviews help ensure that
                                      there is effective oversight, monitoring, compliance, and accountability in these
                                      programs by the Department and program participants. Also during this reporting
                                      period, the Department reached a significant settlement to resolve our prior audit
                                      of Touro College in New York City.

                                      During this reporting period, OIG completed audits of two schools to determine
Program                               whether they complied with specific requirements of the Higher Education Act of
Participants                          1965, as amended, relating to Federal student aid (also referred to as Title IV).
                                      The first audit was of Metropolitan Community College, a public school located in
                                      Omaha, Nebraska, and the second audit was of Colorado Technical University
                                      (CTU) Online, the entirely online component of CTU, a for-profit school. Both
                                      audits found improvements were needed for the schools to better comply with all
                                      necessary requirements.

                                      Metropolitan Community College
                                      Among the more significant issues, we found that during the first three quarters
                                      of award year 2009–2010, Metropolitan Community College—

                                             Did not establish that students had a high school diploma or its equivalent
                                              or passed an approved Ability-to-Benefit test that was properly
                                              administered, resulting in the improper disbursement of more than $73,800
                                              to students whose records we reviewed. Based on our statistical sample,
                                              we estimated that the school disbursed as much as $406,000 to students
                                              for whom the school maintained no evidence of a high school diploma or its
                                              equivalent or a passing score on an Ability-to-Benefit test.

                                             Did not ensure that students whose records we reviewed were meeting the
                                              satisfactory academic progress requirement before disbursing more than
                                              $12,200 in Title IV funds. We estimated that the school disbursed
                                              between $350,000 and $4 million to students not maintaining satisfactory
                                              academic progress.




8   Office of Inspector General Semiannual Report
     Disbursed nearly $27,000 in Title IV funds to students who had exceeded
      the maximum number of allowable credit hours of remedial coursework.

     Disbursed more than $88,000 in Title IV funds to students who were not
      enrolled in eligible programs.

     Did not properly administer its Federal Work Study program, resulting in
      improper payments of more than $21,200.

     Did not properly identify students who never attended their courses, and
      for student withdrawals, did not properly calculate the amounts to return
      to the Title IV programs. We estimated that Metropolitan improperly
      retained between $248,000 and $523,000 in Title IV funds.

We recommended that Federal Student Aid (FSA) require the school to (1) return
nearly $233,000 in Title IV funds, (2) review the records for students who were
not included in our samples and return all Title IV funds that were improperly
disbursed, and (3) ensure that its personnel are adequately trained in the
administration of the Title IV programs. The school did not agree with all of our
findings or recommendations.

Colorado Technical University
Our audit determined that CTU Online did not comply with Federal requirements
regarding student eligibility for Title IV funds, the identification of withdrawn
students, and authorizations to retain credit balances. Specifically, CTU Online
did not

     ensure that students were eligible for Title IV funds at the time of
      disbursement, which resulted in CTU Online improperly disbursing more
      than $155,000 for 37 of the 50 students we reviewed (the results for our
      sample of 50 students cannot be projected to the entire CTU student
      population);

     identify students who had unofficially withdrawn, which resulted in CTU
      Online improperly retaining unearned Title IV funds totaling more than
      $18,000 for20 of the 50 students we reviewed; or

     obtain proper authorizations to retain students’ credit balances.

Other than the exceptions noted above, we determined that CTU Online generally
complied with Federal requirements applicable to the return of Title IV funds and
the payment of incentive compensation to admissions representatives. We
recommended that FSA require CTU to (1) return more than $173,100, which
represents the amount of Title IV funds improperly disbursed or retained for the
students included in our review; (2) develop and implement written policies and
procedures to ensure future compliance with Title IV requirements regarding
student eligibility for program funds, identification of withdrawn students, and
authorizations to retain students’ credit balances; and (3) review records of all
CTU Online students who were not included in our review for all terms from
July 5, 2009, until such time as written policies have been implemented, and
return all other Title IV funds that were improperly disbursed or retained. CTU
did not concur with our findings and recommendations.


                                          Office of Inspector General Semiannual Report   9
                                      Touro College Agrees to $7 Million Settlement
                                      Touro College agreed to pay $7 million to the Department as a result of our
                                      2008 audit that found that the school did not fully comply with Title IV
                                      institutional and program eligibility requirements. Specifically, we found that the
                                      school had distributed Federal student aid to approximately 4,310 students who
                                      attended classes at ineligible Touro campuses.



                                                     Investigations
                                      Identifying and investigating fraud and abuse in the Federal student financial
                                      assistance programs has always been a top OIG priority. The results of our efforts
                                      have led to prison sentences for unscrupulous school officials and others who stole
                                      or criminally misused these funds, significant civil fraud actions taken against
                                      entities participating in the Higher Education Act’s Title IV programs, and
                                      hundreds of millions of dollars returned to the Federal Government in fines,
                                      restitutions, and civil settlements.

                                      Below are summaries of some of our significant investigations involving schools or
Schools and                           school officials.
School Officials
                                      Regional Vice President of Prism Career Institute Pled
                                      Guilty (New Jersey)
                                      A regional vice president of Prism Career Institute pled guilty to stealing more
                                      than $400,000 from the school. The vice president, who had the authority to
                                      make purchases on behalf of the school, submitted fraudulent reimbursement
                                      requests and invoices for supplies, furniture, equipment, and other items that the
                                      school never received. She also wrote checks payable to herself, forged the
                                      school’s chief executive officer’s signature on them, and then deposited them into
                                      her personal bank account.

                                      Civil Fraud Complaint Filed Against ATI Enterprises
                                      (Texas)
                                      As a result of our investigative work, the U.S. Department of Justice (DOJ)
                                      intervened in and filed a civil fraud complaint against this private, for-profit chain
                                      of schools. The complaint alleges that from 2007 through 2010, ATI knowingly
                                      misrepresented job placement statistics at three of its campuses in order to
                                      maintain its eligibility to participate in the Federal student aid programs. ATI also
                                      allegedly enrolled ineligible students, falsified high school diplomas, kept students
                                      enrolled who should have been dropped, and made false representations to
                                      students regarding future employability and potential earnings. During the period
                                      of the complaint, the three ATI campuses received more than $236 million in
                                      Federal student aid. The case began as a lawsuit filed by former employees of ATI
                                      under the provisions of the False Claims Act that allow private citizens to file
                                      whistleblower suits to provide the government information about wrongdoing and
                                      share in the Government’s recovery.




10   Office of Inspector General Semiannual Report
              Civil Complaint Filed Against Owner of Beauty Schools
              (Oklahoma)
              Also as a result of our investigative work, DOJ filed a complaint against the owner
              of several beauty schools, including the School of Hair Design and the Poteau
              Beauty Academy. The complaint alleges that the owner relocated these schools
              from Oklahoma to Texas and Arkansas and used the Oklahoma-based school’s
              Title IV eligibility codes to make it appear as though students in Texas and
              Arkansas were attending the schools in Oklahoma. As a result of the alleged
              fraud, the schools received Federal student aid funding to which they were not
              entitled. The owner is allegedly liable for damages totaling more than
              $1.4 million.

              Below are summaries of actions taken over the last 6 months against people who
Fraud Rings   participated in Federal student aid “fraud rings”—large, loosely affiliated groups
              of criminals who seek to exploit distance education programs in order to
              fraudulently obtain Federal student aid.

              Inspector General, U.S. Attorney Highlight Student Aid
              Fraud Rings (California)
              In September, Inspector General Tighe and the U.S. Attorney for the Eastern
              District of California held a press conference to highlight criminal actions the
              U.S. Attorney’s Office had taken against fraud ring participants. The Inspector
              General and the U.S. Attorney noted that actions had been taken against
              21 people who participated in 7 Federal student aid fraud schemes that preyed on
              at least 15 schools operating in California. Each fraud scheme operated
              separately and independently from one another, and most targeted online
              education programs. As a result of their schemes, the defendants in these cases
              allegedly fraudulently obtained more than $770,000 in Federal student aid. The
              U.S. Attorney’s Office released summaries of the schemes, which include a fraud
              ring that not only relied on family and friends to participate, but allegedly used
              stolen personally identifiable information of people with disabilities to
              fraudulently obtain more than $285,000 in Federal student aid and grants.
              Leaders of another ring allegedly recruited more than 50 straw students—
              including State prison inmates—to fraudulently receive $200,000 in student aid.

              Actions Taken Against Two Participants in $152,300
              Fraud Scheme (Georgia)
              A woman who participated in a Georgia-based fraud ring was sentenced to serve
              12 months in prison and 36 months of supervised release. She was also ordered to
              pay more than $152,300 in restitution. The woman recruited people to
              participate in the scam—straw students—knowing that they were not eligible for
              admission to the schools and that they did not plan to attend the classes. She
              completed and submitted fraudulent school enrollment and Federal student aid
              paperwork in the names of the straw students, and then took a portion of the
              refund once the straw student received it. Another fraud ring participant entered
              into a Pretrial Diversion program and agreed to 18 months of supervised release
              and to pay $7,200 in financial restitution.




                                                       Office of Inspector General Semiannual Report   11
                                      Actions Taken Against 14 Participants in $689,000 Fraud
                                      Scheme (South Carolina)
                                      The ringleader and 4 scam participants were sentenced and 10 others pled guilty
                                      for their roles in a Federal student aid fraud scheme. The scam’s ringleader
                                      recruited straw students—including family, friends, and coworkers, some of whom
                                      were employees of the South Carolina Department of Corrections—to participate
                                      in the scam, telling them that they could get thousands of dollars in student
                                      financial aid without having to take any college courses. The ringleader filed
                                      false online college enrollment and student financial aid applications in their
                                      names, and then took a portion of the refund check received by the straw
                                      student. As a result of these fraudulent actions, at least $689,000 in student
                                      loans and grants were disbursed. The ringleader was sentenced to serve
                                      27 months in prison and 3 years of supervised release, and was also ordered to
                                      pay more than $133,100 in restitution. Another participant was sentence to serve
                                      a year in prison, 5 years of supervised release, and was ordered to pay more than
                                      $116,700 in restitution. The participant was sentenced to 5 years of probation
                                      and was ordered to pay more than $28,100 in restitution.

                                      Ringleaders Pled Guilty in $100,000 Fraud Scheme
                                      (South Carolina)
                                      In our last Semiannual Report to Congress, we reported that 12 South Carolina
                                      residents were indicted for their alleged involvement in a scheme to obtain
                                      Federal student aid funds through online programs at the University of Phoenix
                                      and the Western Governors University. During this reporting period, the two
                                      ringleaders of the scam pled guilty. The two obtained the personally identifiable
                                      information from the other participants that they used to complete and submit
                                      fraudulent enrollment and student aid applications, knowing that they were not
                                      eligible for admission to the schools and that they did not plan to attend classes.
                                      As a result, more than $100,000 in Federal student aid was distributed to the
                                      scheme’s participants.

                                      Prison Inmate, Three Others Indicted (Arizona)
                                      Four people were indicted for participating in a $153,000 student aid fraud
                                      scheme. The indictment alleges that the two ringleaders, one of whom is serving
                                      a prison sentence in Perryville, enrolled straw students into the distance
                                      education program at Rio Salado College for the sole purpose of obtaining Federal
                                      student aid. The prisoner allegedly provided her co-conspirator with the
                                      personally identifiable information of several inmates at the Arizona Department
                                      of Corrections Perryville Complex, which the co-conspirator used to complete and
                                      submit fraudulent school enrollment and Federal student aid paperwork in the
                                      names of the straw students, and then took a portion of the refund once the straw
                                      student received it.

                                      Below are summaries of some of our more significant investigations into
Other Individuals                     allegations of abuse or misuse of Federal student aid by individuals.

                                      Actions Taken Against Owners of Student Aid Services
                                      Business (Florida)
                                      A woman pled guilty and her husband was indicted on charges related to student
                                      aid fraud. The couple formed a company called Graduate Assistance and
12   Office of Inspector General Semiannual Report
Consolidations, Inc., purportedly to assist people applying for Federal student aid.
From 2005 through 2007, the woman assisted ineligible people—those who did not
have a high school diploma or GED—in enrolling at St. Petersburg College. Similar
to our fraud ring cases listed above, she also recruited people to act as straw
students and used the information of those straw students to apply for and
receive Federal student aid. Her husband allegedly conspired with her to commit
the fraud. Once the refund checks were received, the straw student would kick
back a portion to the couple.

Woman Pled Guilty to Aggravated Identity Theft, Student
Aid Fraud (New York)
A woman pled guilty to charges of aggravated identity theft and other charges
related to student aid fraud. From 2007 through 2011, the woman used false
identities and fraudulent documents to obtain more than $53,100 in educational
loans and bank account funds.

Former Public School Teacher Pled Guilty (Wisconsin)
A former Milwaukee City public school teacher pled guilty to charges related to
student aid and tax fraud. From 2002 through 2008, she orchestrated a scheme to
use two identities with two social security numbers to file false tax returns to
fraudulently receive tax refunds, obtain graduate student loans in excess of the
lifetime aggregate subsidized loan limit, and assist her daughter in obtaining
Federal grant funds she was not entitled to receive by falsifying her income. As a
result of her fraudulent activities, the former teacher improperly obtained about
$65,000 in Federal student aid and $27,250 in earned income tax refunds.

Woman Sentenced for Student Aid and Insurance Fraud
(Indiana)
A woman was sentenced to serve 30 months in prison and 24 months of supervised
release. She was also ordered to pay more than $115,500 in restitution for fraud.
The woman failed to report income on her Federal student aid application that
would have reduced the amount of student aid she was entitled to receive. She
also participated in a multi-State fraud conspiracy that involved staging phony
automobile accidents with other individuals in order to collect the insurance
proceeds.




                                          Office of Inspector General Semiannual Report   13
                                              OTHER ACTIVITIES
           Participation on Committees, Work Groups, and Task Forces

                    Department of Education Policy Committees. OIG staff participate in an advisory capacity on
                     these committees, which were established to discuss policy issues related to negotiated
                     rulemaking for student loan regulations and for teacher preparation regulations.

           Review of Legislation, Regulations, Directives, and Memoranda
                    Report to Congress on For-Profit Institutions’ Revenues from Title IV Sources and Non-Title IV
                     Sources as Provided by Institutions. OIG provided technical suggestions to the Department’s
                     reporting, such as including the information on what constitutes an award year and clarifying
                     that revenue percentages were provided through audited financial statements.

                    Higher Education Act of 1965, as amended (HEA) Amendments. OIG provided suggestions to
                     the Department regarding proposed amendments to the HEA that relate to eligibility for and
                     interest charged on subsidized student loans.

                    2013–2014 Free Application for Federal Student Aid Update. OIG provided suggestions to
                     improve the certification of accuracy provided by students and parents applying for Federal
                     student aid.

                    Annual Update to Income-Contingent Plan Formula. OIG suggested revisions to improve
                     clarity in the update.

                    Draft Regulations on Teacher Preparation and TEACH Grant Programs. OIG made suggestions
                     regarding tracking the dates that grant recipients filed Free Applications for Federal Student
                     Aid, use of new terminology, and the basis for denying eligibility for grant.

                    Draft Regulations on Student Loans. OIG made suggestions regarding borrower’s consent to
                     IRS disclosure of tax return information and income contingent repayment plan thresholds
                     being based on discretionary income.

                    Dear Colleague Letter Regarding Title IV Eligibility for Students Without a Valid High School
                     Diploma. OIG expressed concern with permitting a student with any prior enrollment and
                     some attendance in a postsecondary institution to establish Title IV eligibility using the
                     Ability-to-Benefit test or completion of six credit hours alternative even if the student had not
                     previously established eligibility using either of those alternatives.

                    Joint Report by Department and Consumer Financial Protection Bureau Regarding Private
                     Student Loan Marketplace. OIG suggested adding reference to the right of appeal available to
                     institutions that have been determined to be ineligible to participate in the Federal student
                     loan programs based on high default rates.

                    Dear Colleague Letter regarding New Consumer Information Reporting Requirements for
                     Foreign Graduate Medical Schools. OIG suggested that the letter define on-time completion
                     rate, use a combined rate that is used for the pass rate for very small schools, and reference
                     schools’ requirement to report citizen enrollment rate.



14   Office of Inspector General Semiannual Report
Goal 3: Protect the integrity of the Department’s
        programs and operations by detecting and
        preventing vulnerabilities to fraud, waste,
        and abuse.
        Our third strategic goal focuses on our commitment to protect the integrity of the
        Department’s programs and operations. Through our audit and inspection work, we
        identify problems and propose solutions to help ensure that programs and
        operations are meeting the requirements established by law and that federally
        funded education services are reaching the intended recipients—America’s
        students. Through our criminal investigations, we help protect public education
        funds for eligible students by identifying those who abuse or misuse Department
        funds and holding them accountable for their unlawful actions.



                                    Audits and Analytical Tools
                                      During this reporting period, an OIG audit and our work involving data analytics
                                      contributed to this important goal. Data analytics is a process that detects
                                      patterns and trends to help identify and develop information that is not
                                      discernible simply by examining raw data. We are one of the first Inspector
                                      General offices to develop and actively use data analytics in its audit and
                                      investigative operations. We use data analytics to sift through large volumes of
                                      data to identify emerging risks and uncover hidden fraudulent patterns,
                                      relationships, and anomalies.

                                      OIG audit work contributing to this goal focused on oversight of charter schools.
Audits                                Over the last 6 months, we completed the first in what will be a series of work on
                                      charter schools. Our next effort is underway and is examining SEA and
                                      Department oversight of agreements between charter schools and charter
                                      management organizations and educational management organizations to ensure
                                      independence of the charter schools and the appropriateness of other contract
                                      terms. We will report the findings of this audit once completed.

                                      Oversight of Charter Schools
                                      The audit examined two grant programs: the Charter Schools Program’s SEA
                                      Planning and Implementation Grant (SEA grant) and the Charter School Program
                                      non-SEA Planning and Implementation Grant (non-SEA grant) to determine
                                      whether the grantees and subgrantees met grant goals and objectives. We found
                                      that the Department did not effectively oversee and monitor the SEA and non-SEA
                                      charter school grants and did not have an adequate process to ensure that SEAs
                                      effectively oversaw and monitored their subgrantees. We selected three SEAs
                                      (Arizona, California, and Florida) based on a risk matrix we developed of SEAs
                                      that received charter school grants during our audit period (2007–2011).

                                      We found that the Department did not have an adequate corrective action plan
                                      process in place to ensure that grantees corrected deficiencies noted in annual
                                      monitoring reports, did not have a risk-based approach for selecting non-SEA
                                      grantees for monitoring, and did not adequately review SEA and non-SEA
                                      grantees’ fiscal activities. In addition, we found that the Department did not
                                      provide the SEAs with adequate guidance on the monitoring activities they were
                                      to conduct in order to comply with applicable Federal laws and regulations. We

16   Office of Inspector General Semiannual Report
                   also found that none of the three SEAs adequately monitored charter schools
                   receiving the SEA grants, had adequate methodologies to select charter schools
                   for onsite monitoring, or monitored authorizing agencies. Additionally, we found
                   that Florida did not track how much SEA grant funding charter schools drew down
                   and spent and that California had unqualified reviewers performing onsite
                   monitoring. We also determined that the Department did not ensure that SEAs
                   had procedures to properly account for SEA grant funds spent by closed charter
                   schools or for disposed-of assets purchased with SEA grant. We made a number of
                   recommendations, including that the Department develop and implement policies
                   and procedures for issuing and tracking corrective action plans to help ensure that
                   all reported deficiencies are correctly timely. The Department agreed with all of
                   our findings and almost all of our recommendations.

                   During this reporting period, we developed three data analytic tools that are
Analytical Tools   helping us proactively identify student aid fraud rings, better ensure the
                   reliability of grantee data, and better assess grantee risk.

                   E-Fraud Query System
                   This analytical tool was developed to respond to the escalating numbers of fraud
                   rings preying on the student financial aid program. It assists investigators in
                   ongoing student aid fraud ring cases and in the assessment of incoming
                   investigative complaints. The system allows investigators and analysts to focus
                   their attention as early as possible on fraudulent activities by helping them
                   proactively detect fraud ring indicators, such as school enrollment irregularities
                   and indicators of identity theft.

                   A-133/G5 Lookup System
                   This tool enables OIG to match information on grantee awards and payments from
                   two separate systems to better identify discrepancies in reported data. G5 is the
                   Department’s system that contains the award and payment information of entities
                   that receive grants directly from the Department. A-133 Single Audit data from
                   the Federal Audit Clearinghouse provides a high-level overview of audit results
                   and Federal program spending at such entities as State and local governments, as
                   well as nonprofit organizations that spend $500,000 or more in Federal funds in
                   one year. The Lookup System we developed allows our analysts to match an
                   entity’s award and payment information with its associated Single Audit data. It
                   is an important tool in tracking awards from the Department to grantees as well
                   as gathering vital information that we can use to conduct audits, investigations,
                   and Single Audit quality reviews.

                   State and Local Educational Agencies Risk Model System
                   We developed the State and Local Educational Agencies Risk Model to enable OIG
                   staff to better identify which SEAs and LEAs are at higher risk. The system will
                   make data more readily available to OIG auditors and investigators and help
                   contribute to deciding which SEAs and LEAs should be the focus of our work.




                                                             Office of Inspector General Semiannual Report   17
                                                     Investigations
                                      OIG work includes criminal investigations involving bribery, embezzlement, and
                                      other criminal activity, often involving State and local education officials—people
                                      who have abused their positions of trust for personal gain. Our investigative work
                                      over the last 6 months led to a number of criminal actions taken against high-
                                      ranking school officials. OIG will continue to fight public corruption by identifying
                                      and holding accountable those who engage in defrauding Federal education
                                      programs and cheating America’s students.

                                      Below are summaries of some of our more significant investigations involving
Schools and                           school districts and State and local school officials.
School Officials
                                      Former Superintendent of the El Paso Independent School
                                      District Pled Guilty (Texas)
                                      The former superintendent pled guilty to defrauding the school district and the
                                      Federal Government. He directed district employees to change student records,
                                      reclassify student grade levels, and take other actions to make it appear that the
                                      district was meeting or exceeding its Adequate Yearly Progress standards. He did
                                      this in order to receive the financial bonuses stipulated in his employment
                                      contract. The former superintendent also circumvented the district’s contract
                                      processes by awarding a no-bid contract worth $450,000 to a company owned by
                                      his mistress and in which he held a financial interest. He tried to terminate the
                                      contract after the woman ended their relationship.

                                      Former Associate Superintendent of the El Paso
                                      Independent School District Sentenced (Texas)
                                      In a separate case, the former associate superintendent for special education of
                                      El Paso Independent School District was sentenced to serve 48 months in prison
                                      and 3 years of supervised release. He was also ordered to pay more than
                                      $2 million in restitution for bribery and fraud. The former official accepted
                                      bribes from a now-defunct contractor in exchange for his support on a contract
                                      worth several million dollars. The bribes included cash, campaign contributions,
                                      and kickbacks.

                                      Former Superintendent of the Greenville Public School
                                      District Pled Guilty (Mississippi)
                                      The former superintendent of Greenville Public Schools pled guilty to charges
                                      involving bribes, kickbacks, and embezzlement. During his tenure, the former
                                      superintendent conspired with the owner of Teach Them To Read, Inc., a
                                      company that provided reading services for at-risk youth, to award $1.4 million in
                                      district contracts in exchange for various kickbacks. He also allowed the company
                                      to overcharge for services and products in return for improvements to his home,
                                      payments on his personal credit card bills, and a car loan.




18   Office of Inspector General Semiannual Report
Former Superintendent of Illinois School District 147 and
a School Board Secretary Indicted (Illinois)
The former superintendent and the former school board secretary were indicted
on charges of theft and official misconduct. With assistance from the board
secretary, the former superintendent allegedly engaged in a variety of schemes to
misappropriate hundreds of thousands of dollars from the school district. This
included allegedly using school credit cards to make more than $57,000 in
unauthorized purchases, converting his district-provided term life insurance policy
into a whole life insurance policy to capitalize on more than $50,000 in early
withdrawals, and paying himself about $350,000 for more than 560 sick and
vacation days that he did not accrue.

Former Superintendent of El Centro Elementary School
District, University of San Diego Associate Dean, and
Professor Sentenced (California)
The former superintendent of the El Centro Elementary School District, a former
associate dean of San Diego State University-Imperial Valley Campus, and a
former professor at the university were sentenced for their roles in a fraud
scheme involving math and science program grant funds. The former
superintendent fraudulently arranged to hire an entity controlled by the former
associate dean and professor to evaluate a federally funded math and science
program for nearly $400,000. In return, he received $90,000 disguised as research
assistant payments. The former superintendent was not, however, a research
assistant on the grant and thus was not entitled to those funds. The former
superintendent was sentenced to serve 5 months in prison, 5 months in a
residential reentry center, and 3 years of supervised release. He was also ordered
to pay about $169,000 in restitution. The associate dean and the professor were
each sentenced to serve 5 years of probation and were ordered to pay a
$100 special assessment.

Former Assistant Superintendent of Polk County School
Board Sentenced (Florida)
The former assistant superintendent for facilities and operations for the Polk
County School Board was sentenced to serve 2 years in prison for bribery. The
former official played a key role in awarding school construction contracts and
misused his position to influence the process. From 2004 through 2008, he
received nearly $50,000 in bribes from a vendor in exchange for his support on
contract awards.

Actions Taken Against 13 Puerto Rico Department of
Education Employees and Vendors (Puerto Rico)
Criminal actions were taken against the Puerto Rico Department of Education’s
(PRDE) chief procurement officer, five other PRDE employees, and officials from
three vendors for their roles in a fraud scheme involving more than $7 million in
PRDE contract awards. From 2008 through 2010, the vendors conspired to reward
the PRDE chief procurement officer and the other PRDE employees in exchange
for their support on lucrative procurement contracts. The chief procurement



                                         Office of Inspector General Semiannual Report   19
                                       officer was sentenced to serve more than a year in prison and 3 years of
                                       supervised release, one of the PRDE employees involved was sentenced to 3 years
                                       of probation, and another PRDE procurement office employee pled guilty.

                                       Former Superintendent of Ira Independent School District
                                       Sentenced (Texas)
                                       The former superintendent of the Ira Independent School District was sentenced
                                       to serve 14 months in prison and 3 years of probation, and he was ordered to pay
                                       more than $25,100 for fraud. From July 2006 through July 2007, the former
                                       superintendent embezzled more than $13,400 and misused district credit cards to
                                       purchase property and other items for his personal benefit. During this time, the
                                       former official represented that he was using the credit cards for work-related
                                       expenses such as supplies, travel, staff development, and training.

                                       Two American Samoa Department of Education Leaders
                                       Sentenced (American Samoa)
                                       The former chief financial officer and the former director of the School Bus
                                       Division of the American Samoa Department of Education were sentenced to
                                       prison for their roles in a bribery and kickback scheme. Conspiring with the
                                       owner of a company that sold school bus parts, the officials arranged to order
                                       “phantom” bus parts on behalf of the Department of Education that were never
                                       received and purchased parts at inflated prices in exchange for kickbacks from
                                       the company. The former chief financial officer also met with the vendor and
                                       told him to destroy evidence of their business transactions and to lie to law
                                       enforcement officials conducting the investigation into the scheme. From
                                       January 2003 through October 2006, the two received envelopes of cash totaling
                                       about $300,000. The former chief financial officer was sentenced to serve
                                       35 months in prison; the former director was sentenced to serve 25 months in
                                       prison and was ordered to pay $100,000 in restitution.

                                       Former River Rouge School District Official Indicted
                                       (Michigan)
                                       The former director of State and Federal programs for the River Rouge School
                                       District was indicted on bribery charges. The director allegedly received money
                                       and other items of value from a vendor in exchange for her support in awarding a
                                       contract to the company for mandatory programs offered through the Federal
                                       Supplemental Education Services program. The programs, however, were neither
                                       authorized nor mandatory.

                                       Fairfax County Public School District Agrees to $1 Million
                                       Settlement (Virginia)
                                       The Fairfax County School Board agreed to pay $1 million to settle allegations
                                       that it provided false and misleading information on its grant application in 2000
                                       for Gaining Early Awareness and Readiness for Undergraduate Programs.




20   Office of Inspector General Semiannual Report
Former Rancho Santiago Canyon Community College
Director Indicted (California)
The former director of special programs at Rancho Santiago Canyon Community
College was indicted on charges related to fraud involving the College Assistance
Migrant Program. From 2008 through 2011, the director allegedly awarded
program funds to unwitting students who no longer participated in the program
and to people who were neither enrolled nor participated in the program in order
to keep more than $90,000 that was intended to cover their living expenses. She
also allegedly told students who were legitimately participating in the program
that there was no money for their living expenses.

Charter School Founder and Administrators Charged
(Pennsylvania)
A Federal grand jury indicted the former chief executive officer and founder of
four charter schools in the Philadelphia area for allegedly defrauding some of
those schools of more than $6.5 million. Four other charter school executives
were also indicted and charged with conspiracy. The former chief executive
officer allegedly used two management companies she controlled to defraud the
Agora Cyber Charter School and the Planet Abacus Charter School by falsifying a
contract that resulted in $5.6 million in fraudulent payments from Agora and
$700,000 in fraudulent payments from Planet Abacus. The former chief executive
officer and her co-conspirators falsified board meeting minutes, board
resolutions, financial records, and other documents in an attempt to conceal their
actions.

Former Charter School Officials Sentenced (Pennsylvania)
The founder/board chairman and the former chief executive officer of the New
Media Technology Charter School were sentenced after pleading guilty to charges
that they diverted more than $522,000 of New Media funds to other projects in
order to enrich themselves and to advance their personal business interests,
including a nonprofit private school they controlled and operated and other
personal business ventures. The founder was sentenced to serve 24 months in
prison and 5 years of probation; the former chief executive officer was sentenced
to serve 6 months in prison and 5 years of probation. They also were jointly
ordered to pay $861,000 in restitution.

Former Charter Schools Employee Sentenced (Arizona)
A former information technology official at Life School College Preparatory, Inc.,
also known as the Franklin Arts Academies, was sentenced to serve 3 years of
probation and was ordered to pay nearly $2 million in restitution for fraud. The
former official entered fictitious and former student names into the Arizona
Department of Education’s school attendance system for the schools to receive
Federal and State dollars to which they were not entitled.

Milwaukee Choice School President Indicted (Wisconsin)
The president and chief administrator of the Excel Academy, a private choice
school operating multiple campuses in Milwaukee, was indicted on charges
involving embezzlement and money laundering. From 2004 through 2010, the
school leader allegedly used school funds for noneducational purposes, including


                                          Office of Inspector General Semiannual Report   21
                                      more than $564,000 for alleged loan repayments made to the church where he
                                      was pastor when there was no documentation for many of the alleged loans;
                                      money to help purchase two apartment buildings; and leases on cars for himself,
                                      his wife, and his mother.

                                      In addition to the fraud scheme involving Puerto Rico Department of Education
Contractors                           officials and vendors discussed above, below are summaries of some of our other
                                      significant investigations involving State and local school contractors.

                                      Civil Fraud Complaint Filed Against Princeton Review
                                      (New York)
                                      As a result of our investigative work, DOJ intervened in and filed a civil fraud
                                      complaint against the Princeton Review and one of its employees alleging that
                                      Princeton Review billed and obtained Federal funds from the New York City
                                      Department of Education for thousands of hours of services it never provided.
                                      From 2006 through 2010, Princeton Review received more than $38 million in
                                      Federal funds pursuant to Title I of the Elementary and Secondary Education Act
                                      of 1965, as amended by the No Child Left Behind Act of 2001, for purportedly
                                      providing tutoring services to underprivileged students. However, during that
                                      time period, Princeton Review employees who were responsible for the daily
                                      operations allegedly routinely falsified entries on student attendance forms to
                                      make it appear that more students had attended tutoring sessions than had
                                      actually attended. These employees allegedly were pressured to do so by their
                                      supervisors in order to maintain daily student attendance. Princeton Review then
                                      allegedly submitted false certifications to the New York City Department of
                                      Education, stating that these invoices were “true and accurate,” thus misleading
                                      the New York City Department of Education into paying Princeton Review tens of
                                      millions of dollars in Federal funds for tutoring services that had not been
                                      provided. Similar to the complaint DOJ filed against ATI discussed earlier in this
                                      Report, this case also began as a lawsuit filed by a former employee of the
                                      Princeton Review under provisions of the False Claims Act.

                                      Former Met School Employee Pled Guilty (Rhode Island)
                                      A former administrative assistant for the 21st Community Learning Center
                                      program at the Met School in Providence pled guilty to embezzling more than
                                      $27,000 in Federal funds. Between 2007 and 2009, the staffer created fictitious
                                      invoices from vendors, forged signatures on payment checks, and deposited the
                                      money into her bank account. She also used the school’s travel card for personal
                                      expenses, including travel to Puerto Rico with her boyfriend.

                                      Supplemental Education Services Provider Charged With
                                      Forgery (Arkansas)
                                      The owner of The Quote, a company trying to become a Supplemental Education
                                      Services provider in Arkansas, was arrested and charged with forgery. He
                                      allegedly submitted fraudulent documents, including a forged letter of credit
                                      from a deceased bank employee, to the Arkansas Department of Education in
                                      order to be considered a financially responsible entity and therefore be eligible to
                                      participate in the Supplemental Education Services program and obtain
                                      Federal funds.


22   Office of Inspector General Semiannual Report
                  Construction Company Owner Pled Guilty (New York)
                  The owner and operator of Luvin Construction and FML Contracting, Inc., pled
                  guilty to defrauding federally funded construction projects, including projects at
                  the Patchogue-Medford and the Harborfields Central School Districts. The vendor
                  submitted false certifications that the prevailing wage had been paid and failed to
                  collect and truthfully account for and pay Federal Insurance Contributions Act
                  taxes.

                  Our investigations into suspected fraudulent activity by Federal education
Other Grantees    grantees and other individuals have led to the arrest and conviction of a number
and Individuals   of people for theft or misuse of Federal funds. Below you will find summaries of
                  these actions that were taken over the last 6 months.

                  City Manager Pled Guilty to Fraud (Pennsylvania)
                  The city manager of Clairton pled guilty to program fraud for fraudulently
                  steering federally funded contracts for the West Mifflin Area School District to his
                  son’s painting business.

                  Four Spirit Lake Tribe Members Sentenced in Vocational
                  Rehabilitation Program Scam (North Dakota)
                  In our last Semiannual Report, we reported that six people pled guilty to
                  participating in an $80,000 embezzlement scheme involving family members,
                  employees, and volunteers of the Spirit Lake Vocational Rehabilitation Program.
                  During this reporting period, five of them were sentenced, including the project
                  director, her husband, and three co-conspirators. The project director was
                  sentenced to serve 3 months in a halfway house and 7 months of home
                  confinement; her husband was sentenced to 4 years of probation and was ordered
                  to pay more than $22,000 in restitution. The three co-conspirators were each
                  sentenced to serve 2 years of probation and were ordered to pay between $2,000
                  and more than $35,400 in restitution.

                  Former Executive Director of New Orleans Talent Search
                  Program Pled Guilty (Louisiana)
                  The former executive director of the New Orleans Talent Search Program pled
                  guilty to embezzling about $400,000 from the nonprofit organization. From
                  2001 through 2004, the former executive director wrote checks to himself, made
                  ATM cash withdrawals, and obtained numerous cash advances on the program’s
                  credit card accounts.

                  Former English Skills Learning Center Employee Pled
                  Guilty (Utah)
                  A former administrative assistant at the English Skills Learning Center pled guilty
                  to stealing about $100,000 from the Center. From 2004 through November 2009,
                  the woman used the Center’s credit cards for personal expenses, including her
                  son’s wedding. To conceal her crime, she also falsified documents to make it
                  appear that a Utah accounting firm had conducted an audit of the center’s
                  finances.




                                                            Office of Inspector General Semiannual Report   23
                                            OTHER ACTIVITIES
           Participation on Committees, Work Groups, and Task Forces

           Federal and State Law Enforcement-Related Groups
                    U.S. Department of Justice’s Financial Fraud Enforcement Task Force—Consumer Protection
                     Working Group. OIG participates in this working group composed of Federal law enforcement
                     and regulatory agencies that works to strengthen efforts to address consumer-related fraud.

                    Northern Virginia Cyber Crime Working Group. OIG participates in a workgroup of various
                     Federal, State, and local law enforcement agencies conducting cyber crime investigations in
                     northern Virginia. The purpose is to share intelligence and collaborate on matters that may
                     affect multiple agencies.

           Federal and State Audit-Related Groups
                    Association of Government Accountants Intergovernmental Partnerships for Management and
                     Accountability. OIG participates in this partnership that works to open lines of
                     communication among Federal, State, and local governmental organizations with the goal of
                     improving performance and accountability.

           Review of Legislation, Regulations, Directives, and Memoranda

                    Department Letter to Chief State School Officers Regarding Time and Effort Reporting. OIG
                     provided technical suggestions relating to system guidelines.

                    Department Report on Federal Teacher Quality Programs. OIG provided technical suggestions
                     relating to referenced evaluations.

                    Draft Regulations on IDEA Part B Maintenance of Effort for LEAs. OIG provided comments
                     regarding a possible new compliance standard for LEAs and also noted that OIG audits found
                     indications that State data included in the draft regulations contained inaccuracies.

                    Guidance on Elementary and Secondary Education Act Flexibility. OIG suggested language
                     requiring SEAs to have adequate controls in place to prevent and detect cheating and data
                     fraud and to ensure that data are accurate, reliable, and complete. OIG also suggested
                     requiring an evaluation of how SEAs proposed addressing requirements to reduce duplication
                     and unnecessary burden.




24   Office of Inspector General Semiannual Report
Goal 4: Contribute to improvements in
        Department business operations.
        Effective and efficient business operations are critical to ensure that the
        Department successfully manages its programs and protects its assets. Our fourth
        strategic goal speaks to that effort. OIG work in this area seeks to help the
        Department accomplish its objectives by ensuring the reliability, integrity, and
        security of Department data; the Department’s compliance with applicable policies
        and regulations; and the Department’s effective use of taxpayer dollars.




                                             Audits and Reviews
                                      In our FY 2012 Annual Plan, we presented the work we intended to conduct to
                                      help ensure that the Department has the tools and resources to manage its
                                      programs and protect its assets. This included reviews of the Department’s
                                      efforts to address improper payments, its information technology security and
                                      suspension and debarment functions, the external audit resolution process, and
                                      whether the Department appropriately handled sensitive information during the
                                      higher education negotiated rulemaking process involving the gainful employment
                                      regulation. Summaries of our work are below.

                                      OIG work completed over the last 6 months determined that improvements were
Oversight and                         needed in the Department’s oversight of the operations reviewed to better ensure
Compliance                            that it is operating effectively and fully complying with all applicable statutes,
                                      regulations, and guidance.

                                      Department’s Handling of Sensitive Information Related
                                      to the Gainful Employment Regulation
                                      Gainful employment is a requirement that applies to programs offered by for-
                                      profit schools and certain postsecondary career and technical schools that
                                      participate in the Federal student aid programs. Before the issuance of the
                                      2010 regulation, gainful employment had never been defined. As a result of the
                                      regulation, schools must now show that the programs they are offering lead to
                                      gainful employment in recognized occupations. According to the Department, the
                                      regulation seeks to protect taxpayers against wasteful spending on educational
                                      programs of little or no value that could leave students with high student loan
                                      debt and no real way to pay it back.

                                      The regulation received significant attention from the media and members of
                                      Congress after allegations surfaced that Department staff may have
                                      inappropriately leaked sensitive information before issuing the regulation, with a
                                      possible impact on the stock market. In response to these concerns, we reviewed
                                      more than 357,000 emails from Department email accounts and many other
                                      documents, including reports on the for-profit education sector, perspectives on
                                      gainful employment, and speeches given by Department officials and outside
                                      parties at conferences. We sorted and analyzed the emails and the other
                                      documents to determine the types of entities that communicated with
                                      Department employees, who initiated the communications, and the purpose of
                                      the communications. We did the same with the calendars maintained by


26   Office of Inspector General Semiannual Report
Department officials because Department officials met with many entities,
including colleges, student groups, financial analysts, members of Congress, and
other Federal agencies, while preparing its draft regulation. We also interviewed
Department officials to discuss the handling of sensitive information and to ask for
any additional information, as needed, about the emails and meetings that we
had reviewed. Based on the work we conducted, our audit found no improper
disclosure of sensitive information by Department officials. We did note instances
where outside parties informed the Department that they had received nonpublic
information from people outside of the Department who had knowledge of the
proposed regulations. In all instances, the source of the nonpublic information
was identified as entities outside of the Department. We also found areas where
the Department could improve its handling of sensitive information and made
recommendations for it to do so, including that it establish written protocols for
communicating with outside parties during each phase of the rulemaking process
and that it consider publicly disclosing all relevant meetings with outside parties
to increase transparency in the rulemaking process. The Department stated that
it would take action to address our recommendations.

Department’s Nonprocurement Suspension and
Debarment Process
Our inspection found that the Department’s nonprocurement suspension and
debarment process was inefficient and lacked characteristics the Government
Accountability Office identified as common in effective suspension and debarment
programs. Unlike the policies of the 31 Federal agencies we reviewed, the
Department’s policy requires both a notice official and a deciding official in the
suspension and debarment process. We found that this two-tiered process
required more human capital resources than necessary. Each tier reviews the
same information but, in order to provide more due process, does not
communicate with one another at any point in the process. This duplication
occurred even in matters that were not contested by the outside entity or
individual, which was the case more than 90 percent of the time for FY 2010–
2011. We also found that the Department lacked detailed policies and procedures
that provided guidance on referrals, which the Government Accountability Office
has identified as common in effective suspension and debarment programs. We
found the Department’s guidance to be outdated and in need of revision and that
the Department took nearly 7 years to conform to OMB and Budget regulatory
requirements for suspension and debarment. In addition, we found that the
Department’s nonprocurement suspension and debarment program does not
receive referrals from program offices but relies solely on OIG referrals, which are
based on indictments and convictions. This limits the Department’s ability to
fully use suspension and debarment as a means to protect the Federal interest.
Further, we identified delays in referrals from OIG that affected the Department’s
ability to take timely suspension and debarment actions. Our recommendations
included that the Department eliminate the two-tiered process, update its
outdated policies and procedures, ensure that its program offices are aware of
suspension and debarment as a resource, and develop a system for processing
referrals from program offices. The Department did not concur or nonconcur with
any of our findings or recommendations. In addition, OIG agreed to take steps to
improve the timeliness of its referrals.


                                          Office of Inspector General Semiannual Report   27
                                      The Department’s External Audit Resolution Process
                                      Our audit found that the Department’s resolution system for external OIG audits
                                      was not effective and audits were not resolved in a timely manner, which has
                                      affected the potential recovery of funds and has likely created delays in the
                                      development and implementation of corrective action by auditees (including
                                      SEAs, LEAs, and other grantees) that are intended to correct weaknesses in
                                      program management. A longstanding OMB directive requires Federal agencies to
                                      resolve external audits within a maximum of 6 months after issuance of the final
                                      report. Resolution is defined as the point at which OIG and Department officials
                                      agree on action to be taken on OIG findings and recommendations. We reviewed
                                      93 external audits that were issued from 2007 through 2010 and determined that
                                      84 (90 percent) had not been resolved within 6 months, and 35 of those 84 audits
                                      (42 percent) were still unresolved as of January 2012. We also noted that the
                                      percentage of audits not resolved within 6 months increased during each calendar
                                      year, rising from 82 percent for those audits issued in 2007 to 100 percent for
                                      those issued in 2010. Additionally, we identified 53 audits that were overdue for
                                      resolution as of June 2010, regardless of report issuance date. These audits were
                                      overdue by an average of 1,078 days and included questioned costs totaling
                                      $568 million. As of December 31, 2011, the Department had lost the opportunity
                                      to recover $415 million of these costs due to the expiration of the statute of
                                      limitations. We also found that the Department did not ensure that the resolution
                                      process for external OIG audits operated effectively. The Department’s Post
                                      Audit Group did not ensure the Department’s compliance with OMB requirements
                                      or its own internal policies, thereby weakening the effectiveness of the resolution
                                      process for external OIG audits. Ineffective internal controls over audit resolution
                                      may have a negative effect on the achievement of the Department’s mission and
                                      the anticipated results of individual programs.

                                      We made a number of recommendations to help the Department improve its
                                      process, including that it strengthen Departmentwide accountability for timely
                                      audit resolution. In response to our report, the Department proposed a series of
                                      actions to be implemented to address many of our specific recommendations.

                                      In an effort to help Federal agencies reduce improper payments, various pieces of
Improper                              legislation and related measures were enacted and implementing guidance has
Payments                              been issued over the last several years. One such measure is Executive
                                      Order 13520, which requires the head of each agency to submit to the Inspector
                                      General and the Council of the Inspectors General on Integrity and Efficiency a
                                      report on its high-dollar improper payments. During this reporting period, we
                                      completed a review of the Department’s process for identifying and reporting
                                      those high-dollar overpayments. Below is a summary of our findings.

                                      Process for Identifying and Reporting High-Dollar
                                      Overpayments
                                      We determined that the Department could strengthen its process for identifying
                                      and reporting high-dollar overpayments, and during the course of our inspection,
                                      it began taking steps to do so. The OMB implementing guidance for Executive
                                      Order 13520 defined a high-dollar improper payment to be any overpayment that
                                      is in excess of 50 percent of the correct amount of the intended payment with the
                                      following conditions: (1) the total payment to an individual exceeds $5,000 or

28   Office of Inspector General Semiannual Report
              (2) payment to an entity exceeds $25,000. In preparing and submitting the reports,
              the Department’s Office of the Chief Financial Officer identified potential
              overpayments by reviewing data provided by specific Department units, including
              FSA, and reviewed overpayments identified in prior audit reports and program
              reviews. However, Department staff informed us that FSA had not determined
              whether overpayments should be analyzed at the individual level or the entity
              level. Until it does so, the Department cannot determine whether Federal student
              aid overpayments meet the high dollar threshold. We recommended that Office of
              the Chief Financial Officer work with FSA to determine whether Federal student aid
              overpayments should be analyzed at the institution level or at the student level.
              The Department concurred with our finding and stated that it would work with FSA
              to determine the most appropriate and cost-effective ways to identify, analyze,
              and report high-dollar overpayments.

              Information technology permeates all aspects of programs and services coordinated
Information   through the Department. Safeguarding information and systems is therefore
Technology    essential to the ability of the Department to perform its mission and meet its
              responsibilities. For the last several years, OIG’s information technology security
Security      audits have identified management, operational, and technical controls that needed
Management    improvement to adequately protect the confidentiality and integrity of the
              Department’s systems and data. Our work involving information technology security
              management over the last 6 months continued to identify areas needing improvement.

              EDCAPS Information Security Audit
              An audit performed by our contractor found that the Department’s Education
              Central Automated Processing System (EDCAPS) information security needs
              improvement to address operational, managerial, and security control weaknesses.
              EDCAPS is the Department’s system for managing grant and contract awards,
              making payments, and accounting for goods and services provided or received.
              Security controls and effective management are necessary to protect sensitive and
              financial information contained in EDCAPS, including personally identifiable
              information. The audit identified weaknesses in risk management, patch
              management, configuration management, incident reporting, security configuration
              management, database tracking, security configuration baseline, and separation of
              duties. These weaknesses occurred because the Department’s monitoring and
              oversight controls did not ensure contractor compliance with Federal requirements
              and the Department’s internal control procedures did not ensure that system
              owners and other responsible parties timely performed their duties. Many of the
              weaknesses identified in this report were similar in nature to weaknesses that were
              identified in previous reports, including the 2011 audit of the Education Department
              Utility for Communications, Applications, and Technology Environment, or
              EDUCATE, security audit. Additionally, two of the weaknesses highlighted in this
              report—patch management and security configuration management—had been
              identified as needing improvement every year since 2008. The report contained
              recommendations that the Department strengthen existing controls and develop
              new monitoring capabilities designed to ensure the Department’s and contractor’s
              compliance with Federal information system security laws, regulations, and
              standards. The recommendations, if implemented, would help safeguard EDCAPS
              data from unauthorized access, misuse, and fraud. The Department agreed with
              most of our recommendations.


                                                        Office of Inspector General Semiannual Report   29
                                                     Investigations
                                      Strong standards of accountability apply to Federal employees and contractors
                                      entrusted with stewardship of taxpayer dollars and administering Federal
                                      education programs and services. This includes employees or contractors who
                                      abuse their access to the National Student Loan Data System, which is the
                                      Department’s central database for Federal student aid.

                                      Below is a summary of one case we completed during this reporting period
Contractor                            involving an employee of a Department contractor.

                                      Former Nelnet Employee Sentenced (Nebraska)
                                      A former Nelnet employee was sentenced to serve 1 year and 1 day in prison and
                                      3 years of supervised release for exceeding her access to the National Student
                                      Loan Data System for personal financial gain. The former employee stole the
                                      social security number of a Federal student aid borrower in the National Student
                                      Loan Data System and used that information to obtain $600 from a payday loan
                                      company.




                                   Non-Federal Audit Activities
                                      The Inspector General Act of 1978, as amended (IG Act) requires that Inspectors
                                      General take appropriate steps to ensure that any work performed by non-Federal
                                      auditors complies with Government Auditing Standards. To fulfill these
                                      requirements, we perform a number of activities, including conducting quality
                                      control reviews of non-Federal audits, providing technical assistance, and issuing
                                      audit guides to help independent public accountants performing audits of
                                      participants in the Department’s programs.

                                      OMB Circular A-133 requires entities such as State and local governments,
Quality Control                       universities, and nonprofit organizations that spend $500,000 or more in Federal
Reviews                               funds in 1 year to obtain an audit, referred to as a Single Audit. Additionally, for-
                                      profit institutions and their servicers that participate in the Federal student aid
                                      programs and for-profit lenders and their servicers that participate in specific
                                      Federal student aid programs are required to undergo annual audits performed by
                                      independent public accountants in accordance with audit guides issued by the
                                      OIG. These audits assure the Federal Government that recipients of Federal funds
                                      comply with laws, regulations, and other requirements that are material to
                                      Federal awards. To help assess the quality of the thousands of single audits
                                      performed each year, we conduct quality control reviews of a sample of audits.
                                      During this reporting period, we completed 22 quality control reviews of audits
                                      conducted by 21 different independent public accountant, or offices of firms with
                                      multiple offices. We concluded that 14 (64 percent) were acceptable or
                                      acceptable with minor issues and 8 (36 percent) were technically deficient.




30   Office of Inspector General Semiannual Report
                              OTHER ACTIVITIES
Participation on Committees, Work Groups, and Task Forces
Department
       Department of Education Senior Assessment Team. OIG participates in an advisory capacity
        on this team. The team provides oversight of the Department’s assessment and reports on
        internal controls and provides input to the Senior Management Council concerning the overall
        assessment of the Department’s internal control structure, as required by the Federal
        Managers’ Financial Integrity Act of 1982 and OMB Circular A-123, “Management’s
        Responsibility for Internal Control.”

       Department of Education Investment Review Board and Planning and Investment Review
        Working Group. OIG participates in an advisory capacity in these groups that review
        information technology investments and the strategic direction of the information technology
        portfolio.

       Department Human Capital Policy Working Group. OIG participates in this work group, which
        meets monthly to discuss issues, proposals, and plans related to human capital management.

Inspector General Community
       Council of the Inspectors General on Integrity and Efficiency (CIGIE). OIG staff play an active
        role in CIGIE efforts. Inspector General Tighe is the Vice Chair of the Information Technology
        Committee and a member of CIGIE’s Audit Committee, Investigations Committee, the
        Interagency Coordination Group for Guam Realignment, and the Suspension and Debarment
        Working Group, which is a subcommittee of the Investigations Committee. OIG staff are
        members of CIGIE’s Assistant Inspector General for Investigations Subcommittee, the
        Information Technology Subcommittee for Investigations, the Cyber Security Working Group,
        the Inspections and Evaluations Working Group, the Council of Counsels to the Inspectors
        General, the New Media Working Group, and the Federal Audit Executive Council’s
        Professional Development Committee, and co-chair the Federal Audit Executive Council’s
        Financial Statement Committee. OIG staff also participated in the following CIGIE-related
        activities.

                   OIG Human Resources Roundtable. This roundtable meets to collaboratively
                    address shared IG community human capital hiring, onboarding, and staff
                    retention challenges.

                   New Auditor Training. During this reporting period, the OIG led coordination of a
                    session of CIGIE-sponsored Introductory Auditor Training, which provided entry-
                    level auditors from the IG community with Federal audit skills and standards.

                   Financial Statement Audit Network. OIG staff chair this Governmentwide working
                    group that identifies and resolves key issues concerning audits of agency financial
                    statements and provides a forum for coordination with the Government
                    Accountability Office and the U.S. Department of the Treasury on the annual audit
                    of the Government’s financial statements.




                                                                       Office of Inspector General Semiannual Report   31
                                 CIGIE/Government Accountability Office Annual Financial Statement Audit
                                  Conference. OIG staff chair the Planning Committee for the annual conference
                                  that covers current issues related to financial statement audits and standards.

                                 Cloud Computing Working Group. OIG participated in this IG community group
                                  that developed cloud computing contract clauses to ensure that OIGs have
                                  adequate data access for the purposes of audits and criminal investigations.

           Federal and State Audit-Related Groups and Entities
                    Comptroller General’s Advisory Council on Government Auditing Standards. OIG staff serve
                     on this council, which provides advice and guidance to the Comptroller General on
                     government auditing standards.

                    Intergovernmental Audit Forums. OIG staff chair and serve as officers of a number of
                     intergovernmental audit forums, which bring together Federal, State, and local government
                     audit executives who work to improve audit education and training and exchange information
                     and ideas regarding the full range of professional activities undertaken by government audit
                     officials. OIG staff chair both the Midwestern and the Southeastern Forums, and they serve as
                     officers on the Southwestern Forum and the New Jersey-New York Forum.

                    Interagency Working Group for Certification and Accreditation. OIG participates in this
                     working group, which exchanges information relating to Federal forensic science programs
                     that share intergovernmental responsibilities to support the mission of the National Science
                     and Technology Council’s Subcommittee on Forensic Science.

                    Interagency Fraud and Risk Data Mining Group. OIG participates in this group that shares best
                     practices in data mining and evaluates data mining and risk modeling tools and techniques to
                     detect patterns indicating possible fraud and emerging risks.

                    AICPA Government Audit Quality Center’s Single Audit Roundtable. OIG staff responsible for
                     single audit policy and quality participate in this discussion group, which meets semiannually
                     and consists of Federal, State, and local government auditors and accountants who perform
                     single audits. The participants discuss recent or anticipated changes in single audit policy,
                     such as the Compliance Supplement to OMB Circular A-133, new auditing standards, and issues
                     of audit quality found in recent quality control reviews.

           Review of Legislation, Regulations, Directives, and Memoranda
                    OMB Grant Reform Guidance. OIG staff provided significant input to OMB’s Advance Notice of
                     Proposed Guidance and a draft Notice of Proposed Guidance on grant reform. We worked with
                     a group of six other OIGs led by the National Science Foundation OIG to provide feedback on
                     proposed technical improvements to earlier versions of the draft notice. We were the lead IG
                     in providing significant comments to OMB on proposals to raise the threshold of the
                     A-133 Single Audits.

                    Improper Payments Elimination and Recovery Improvement Act of 2012. OIG offered
                     technical suggestions related to improving the determination of improper payments by Federal
                     agencies and the “Do Not Pay” initiative.

                    DATA Act. OIG suggested that the Act define a conference to require attendance of at least
                     51 attendees, reflecting the DATA Act sponsor’s recent request for agencies to report
                     overnight conferences attended by more than 50 employees.



32   Office of Inspector General Semiannual Report
   Senior Executive Service Reform Act of 2012. OIG suggested that language be inserted at the
    end of section 304(e)(1)(C), with regard to Senior Executive Rotation Programs noting that if
    the senior executive is in a job series that has particular benefits and authorities, such as law
    enforcement or firefighter job series, any rotation must be to a job series that has the same
    benefits and authorities and causes no impact on the executive's retirement eligibility.

   Conflict of Interest Policy for Peer Reviewers in Discretionary Grant Programs. OIG suggested
    that the peer reviewer questionnaire address nonfinancial conflicts of interest in addition to
    financial conflicts of interest.

   Memorandum to Discretionary Grantees Regarding the Use of Grant Funds for Conferences
    and Meetings. OIG suggested language to encourage grantees to have no more conference
    attendees than absolutely necessary to accomplish the grant’s goals and objectives.

   Draft Regulations on Discretionary Grant Process. OIG suggested that a proposed exception
    for certain grant applicants from full competitive contracting requirements require a
    certification that contracts be free of all conflicts of interest and that external evaluators of
    grant applications certify that their evaluation is fair and objective.




                                                                     Office of Inspector General Semiannual Report   33
34   Office of Inspector General Semiannual Report
Annexes
Annex A. Contract-Related Audit Products With Significant Findings
The following is provided in accordance with Section 845 of the National Defense Authorization Act for Fiscal Year 2008,
which requires each Inspector General to include information in its Semiannual Reports to Congress on final contract-
related audit reports that contain significant findings.

Report Number: ED-OIG/A11M0002                                     Date Issued: September 7, 2012

Subject: Education Central Automated Processing System (EDCAPS) Information Security Audit

Finding: Improvements were needed to address operational, managerial, and security control weaknesses in EDCAPS,
including in risk management, patch management, security configuration management, incident reporting, configuration
management database tracking, security configuration baseline, and separation of duties. These weaknesses resulted from
the Department’s insufficient design and implementation of monitoring and oversight controls not ensuring contractor
compliance with Federal requirements, and the Department’s insufficient internal control procedures not ensuring that
system owners and other responsible parties timely performed their duties. Many of the weaknesses identified in this report
were similar in nature to weaknesses identified in previous reports, including the 2011 audit of the Education Department
Utility for Communications, Applications, and Technology Environment, or EDUCATE, security audit. Additionally, two of the
weaknesses highlighted in this report had been identified as needing improvement every year since 2008.




Annex B. Peer Review Results
Title IX, Subtitle I, Sec. 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203)
requires the Inspectors General to disclose the results of their peer reviews in their Semiannual Reports to Congress.

During this reporting period, we concluded peer reviews involving the Special Inspector General for the Troubled Asset Relief
Program’s (SIGTARP) investigative process and the Department of Housing and Urban Development (HUD) OIG’s audit process.
         Our peer review determined that SIGTARP’s investigative process was in compliance with the Attorney General
          Guidelines for Offices of Inspector General with Statutory Law Enforcement Authority and the CIGIE Quality
          Standards for Investigations. We did not make any recommendations.
         We conducted a peer review of the HUD OIG’s system of quality control involving its audit process. We found that
          HUD-OIG’s system met applicable professional standards in all material respects. There were no outstanding
          recommendations and HUD OIG received a peer review rating of pass.




36   Office of Inspector General Semiannual Report
Required Tables
Reporting Requirements of the Inspector General Act, as Amended
                                                               Requirement
           Section                                                                                          Table Number
                                                               (Table Title)

5(a)(1) and 5(a)(2)           Significant Problems, Abuses, and Deficiencies                                    N/A

5(a)(3)                       Uncompleted Corrective Actions                                                     1
                              Significant Recommendations Described in Previous Semiannual Reports to
                              Congress on Which Corrective Action Has Not Been Completed

5(a)(4)                       Matters Referred to Prosecutive Authorities                                        6
                              Statistical Profile: Fiscal Year 2012
                              (October 1, 2011, through September 30, 2012)

5(a)(5) and 6(b)(2)           Summary of Instances Where Information was Refused or Not Provided                N/A

5(a)(6)                       Listing of Reports                                                                 2
                              Audit, Inspection, Evaluation, and Other Reports and Products on Department
                              Programs and Activities (April 1, 2012, through September 30, 2012)

5(a)(7)                       Summary of Significant Audits                                                     N/A

5(a)(8)                       Questioned Costs                                                                   3
                              Audit, Inspection, and Evaluation Reports With Questioned or Unsupported
                              Costs

5(a)(9)                       Better Use of Funds                                                                4
                              Audit, Inspection, and Evaluation Reports With Recommendations for Better
                              Use of Funds

5(a)(10)                      Unresolved Reports
                              Unresolved Audit, Inspection, and Evaluation Reports Issued Prior to              5-A
                              April 1, 2012

                              Summaries of Audit, Inspection, and Evaluation Reports Issued During the          5-B
                              Previous Reporting Period Where Management Decision Has Not Yet Been Made

5(a)(11)                      Significant Revised Management Decisions                                          N/A

5(a)(12)                      Significant Management Decisions With Which OIG Disagreed                         N/A

5(a)(13)                      Unmet Intermediate Target Dates Established by the Department Under the           N/A
                              Federal Financial Management Improvement Act of 1996




38   Office of Inspector General Semiannual Report
Table 1: Significant1 Recommendations Described in Previous Semiannual
         Reports to Congress on Which Corrective Action Has Not Been
         Completed
Section 5(a)(3) of the IG Act, as amended, requires identification of significant recommendations described in
previous Semiannual Reports on which management has not completed corrective action.

                                                                                                         Number of
                                Report Title                                      Date of                Significant
       Report                                                                                         Recommendations              Projected
                         (Prior Semiannual Report            Date Issued        Management
       Number                                                                                                                     Action Date
                          (SAR) Number and Page)                                 Decision
                                                                                                     Open       Completed

AUDIT REPORTS

Federal Student Aid (FSA)

A11J0006               Security Controls for Data            9/29/2010           12/13/2010            1             23           10/30/2012
                       Protection Controls Over
                       FSA’s Virtual Data Center
                       (SAR 61, page 33)

A17K0002               Financial Statement Audits            11/15/2010           1/7/2011             2             5             1/18/2013
                       FY 2010 and FY 2009-FSA
                       (SAR 62, page 24)

Office of Elementary and Secondary Education (OESE)

A19I0002               Office of Indian Education’s           2/2/2010           8/17/2011             1             13           12/30/2011
                       Management of the
                       Professional Development
                       Grant Program
                       (SAR 60, page 40)
1
    This table is limited to OIG internal audit reports of Departmental operations because that is the only type of audit in which the Department
    tracks each related recommendation through completion of corrective action.


OIG Product Web Site Availability Policy. OIG final issued products are generally considered to be public documents accessible on OIG’s Web
site unless sensitive in nature or otherwise subject to Freedom of Information Act exemption. Consistent with the Freedom of Information
Act, and to the extent practical, OIG redacts exempt information from the product so that nonexempt information contained in the product
may be made available on the OIG Web site.




                                                                                              Office of Inspector General Semiannual Report    39
Table 2: Audit, Inspection, Evaluation, and Other Reports and Products on
         Department Programs and Activities
         (April 1, 2012, through September 30, 2012)
Section 5(a)(6) of the IG Act, as amended, requires a listing of each report completed by OIG during the
reporting period.

                                                                   Questioned
                                                                      Costs1
 Report                                                 Date                    Unsupported      Number of
                             Report Title                           (Includes
 Number                                                Issued                      Costs2     Recommendations
                                                                  Unsupported
                                                                      Costs)

AUDIT REPORTS

FSA

A07K0003       Metropolitan Community College’s        5/15/12     $232,918                           22
               Administration of Title IV Programs

A09K0008       Colorado Technical University’s         9/21/12     $173,164                           8
               Administration of Title IV Programs

Office of the Chief Financial Officer (OCFO)

A19K0009       The Department’s External Audit         7/3/12                                         12
               Resolution Process (The Deputy
               Secretary is also designated as an
               action official)

Office of the Chief Information Officer (OCIO)

A11M0002       Education Central Automated             9/7/12                                         15
               Processing System (EDCAPS)
               Information Security Audit

Office of the Deputy Secretary (ODS)

A09L0006       School Districts’ Use of Recovery Act   9/28/12                                      None
               and Education Jobs Funds

Office of Innovation and Improvement (OII)

A02L0002       The Office of Innovation and            9/25/12                                        7
               Improvement’s Oversight and
               Monitoring of the Charter Schools
               Program’s Planning and
               Implementation Grants

Office of the Secretary (OS)

A19L0002       Department’s Negotiated Rulemaking      6/21/12                                        3
               Process for Gainful Employment

Office of Special Education and Rehabilitative Services (OSERS)

A06K0011       Centers for Independent Living          9/12/12     $39,1233       $39,123             11
               Compliance, Performance, Recovery
               Act Reporting, and Monitoring
               (Rehabilitation Services
               Administration is also designated as
               an action official)


40   Office of Inspector General Semiannual Report
                                                                                   Questioned
      Report                                                         Date        Costs1 (Includes       Unsupported          Number of
                                   Report Title
      Number                                                        Issued        Unsupported              Costs2         Recommendations
                                                                                      Costs)

INSPECTION REPORTS

OCFO

I13L0003             Review of the Department’s Process            4/23/12                                                          1
                     for Identifying and Reporting High-
                     Dollar Overpayments Required Under
                     Executive Order 13520

ODS

I13L0001             Department’s Nonprocurement                   6/22/12                                                          5
                     Suspension and Debarment Process

Total                                                                                $445,2054            $39,123                   84
1
    As defined by the IG Act, as amended, questioned costs are identified during an audit, inspection, or evaluation because of (1) an alleged
    violation of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds;
    (2) such cost not being supported by adequate documentation; or (3) the expenditure of funds for the intended purpose being unnecessary
    or unreasonable. OIG considers that category (3) of this definition would include other recommended recoveries of funds, such as recovery
    of outstanding funds or revenue earned on Federal funds, or interest due the Department. During this reporting period, no OIG report was
    issued identifying a better use of funds.
2
    As defined by the IG Act, as amended, unsupported costs are costs that, at the time of the audit, inspection, or evaluation, were not
    supported by adequate documentation. These amounts are also included as questioned costs.
3
    Figure consists of only $39,123 of unsupported costs as no costs were questioned in the report (A06K0011).
4
    Figure includes $406,082 of questioned costs and $39,123 of unsupported costs.



Description of Non-Audit Report Products
Inspections are analyses, evaluations, reviews or studies of the Department’s programs. The purpose of an inspection is to provide
Department decision makers with factual and analytical information, which may include an assessment of the efficiency and effectiveness of
their operations, and vulnerabilities created by their existing policies or procedures. Inspections may be conducted on any Department
program, policy, activity or operation. Typically, an inspection results in a written report containing findings and related recommendations.
Inspections are performed in accordance with quality standards for inspections approved by the Council of Inspectors General for Integrity and
Efficiency.




                                                                                             Office of Inspector General Semiannual Report   41
Table 3: Audit, Inspection, and Evaluation Reports With Questioned or
         Unsupported Costs1
Section 5(a)(8) of the IG Act, as amended, requires for each reporting period a statistical table showing
the total number of audit and inspection reports, the total dollar value of questioned and unsupported
costs, and responding management decision.

                                                                                         Questioned Costs2
                          Requirement                                Number                  (Includes       Unsupported3 Costs
                                                                                        Unsupported Costs)

A. For which no management decision has been made                        40                 $371,414,023        $241,173,676
   before the commencement of the reporting period

B. Which were issued during the reporting period                         3                    $445,205            $39,123

      Subtotals (A + B)                                                  43                 $371,859,228        $241,212,799

C. For which a management decision was made during                       11                 $28,100,465         $21,616,876
   the reporting period

         (i) Dollar value of disallowed costs                                               $20,443,001         $16,825,436
         (ii) Dollar value of costs not disallowed                                           $7,657,464          $4,791,440

D. For which no management decision was made by                          32                 $343,758,763        $219,595,923
   the end of the reporting period
1
    None of the products reported in this table were performed by the Defense Contract Audit Agency.
2
    “Questioned costs” is defined in Table 2.
3
    “Unsupported costs” is defined in Table 1. These amounts are also included in questioned costs.




42     Office of Inspector General Semiannual Report
Table 4: Audit, Inspection, and Evaluation Reports With Recommendations
         for Better Use of Funds1
Section 5(a)(9) of the IG Act, as amended, requires for each reporting period a statistical table showing the
total number of audit, inspection, and evaluation reports and the total dollar value of recommendations that
funds be put to better use by management.

                                 Requirement                                            Number                       Dollar Value

A. For which no management decision has been made before the                                2                        $18,200,000
   commencement of the reporting period

B. Which were issued during the reporting period                                            0                             $0

      Subtotals (A + B)                                                                     2                        $18,200,000

C. For which a management decision was made during the reporting
   period
    (i) Dollar value of recommendations that were agreed to by                              0                             $0
         management
    (ii) Dollar value of recommendations that were not agreed to                            0                             $0
         by management

D. For which no management decision was made by the end of the                              2                        $18,200,000
   reporting period
1
    None of the products reported in this table were performed by the Defense Contract Audit Agency, and no inspection or evaluation reports
    identifying better use of funds were issued during this reporting period.




                                                                                            Office of Inspector General Semiannual Report      43
Table 5-A: Unresolved Audit, Inspection, and Evaluation Reports Issued
           Prior to April 1, 2012
Section 5(a)(10) of the IG Act, as amended, requires a listing of each report issued before the commencement
of the reporting period for which no management decision had been made by the end of the reporting period.
Summaries of the audit and inspection reports issued during the previous SAR period follow in Table 5-B.

                                                                                           Total
                                           Report Title                        Date                      Number of
Report Number                                                                            Monetary
                                  (Prior SAR Number and Page)                 Issued                  Recommendations
                                                                                         Findings

NEW SINCE LAST REPORTING PERIOD

AUDIT REPORTS

FSA

A05K0012             Saint Mary-of-the-Woods College’s Administration of      3/29/12   $42,362,291         19
                     the Title IV Programs (SAR 64, page 36)

                     Current Status: FSA informed us that it is currently
                     working to resolve this audit.

OESE

A02K0014             Camden City Public School District’s Administration of   3/6/12    $2,854,2251         18
                     Non-Salary Federal Education Funds (SAR 64, page 37)

                     Current Status: OESE informed us that it is
                     developing a Program Determination Letter (PDL).

A04K0007             Alabama: Use of Funds and Data Quality for Selected      2/15/12                        7
                     American Recovery and Reinvestment Act Programs
                     (OCFO, OSERS, and the Implementation and Support
                     Unit (ISU) are also designated as action officials)
                     (SAR 64, page 37)

                     Current Status: OESE and ODS/ISU joint PDL was
                     issued on 4/26/2012. OSERS/Office of Special
                     Education Program (OSEP) informed us that it is
                     developing a PDL.

REPORTED IN PREVIOUS SARs

AUDIT REPORTS

FSA

A03I0006             Special Allowance Payments to Sallie Mae’s Subsidiary,   8/3/09    $22,378,905          3
                     Nellie Mae, for Loans Funded by Tax-Exempt
                     Obligations (SAR 59, page 41)

                     Current Status: ODS informed us that the audit is on
                     Administrative Stay pending determination on appeal
                     hearing delegation.

A04B0019             Advanced Career Training Institute’s Administration of   9/25/03   $7,472,583          14
                     the Title IV HEA Programs (SAR 47, page 13)

                     Current Status: FSA informed us that it is currently
                     working to revolve this audit in Audit Accountability
                     and Resolution Tracking System.


44   Office of Inspector General Semiannual Report
                                                                                           Total
                                     Report Title                           Date                            Number of
Report Number                                                                            Monetary
                            (Prior SAR Number and Page)                    Issued                        Recommendations
                                                                                         Findings

A04E0001        Review of Student Enrollment and Professional             9/23/04       $2,458,347                7
                Judgment Actions at Tennessee Technology Center at
                Morristown (SAR 49, page 14)

                Current Status: FSA informed us that the draft audit
                determination/PDL is currently under review.

A05G0017        Capella University’s Compliance with Selected              3/7/08        $589,892                 9
                Provisions of the HEA and Corresponding Regulations
                (SAR 56, page 25)

                Current Status: FSA informed us that the draft audit
                determination/PDL is currently under review.

A05I0011        Special Allowance Payments to the Kentucky Higher         05/28/09      $9,018,400                4
                Education Student Loan Corporation for Loans Made or
                Acquired with the Proceeds of Tax-Exempt Obligations
                (SAR 59, page 41)

                Current Status: ODS informed us that the audit is on
                Administrative Stay due to ongoing litigation related
                to tax-exempt special allowance.

A05I0014        Ashford University’s Administration of the Title IV HEA   1/21/11         $29,036                 13
                Programs (SAR 62, page 24)

                Current Status: FSA informed us that it is currently
                working to resolve this audit.

A0670005        Professional Judgment at Yale University                  3/13/98         $5,469                  3
                (SAR 36, page 18)

                Current Status: FSA informed us that it is waiting on
                the outcome of the Secretary’s decision on Saint Louis
                University’s appeal of its Professional Judgment
                finding before it can resolve this audit.

A0670009        Professional Judgment at University of Colorado           7/17/98         $15,082                 4
                (SAR 37, page 17)

                Current Status: FSA informed us that it is waiting on
                the outcome of the Secretary’s decision on Saint Louis
                University’s appeal of its Professional Judgment
                finding before it can resolve this audit.

A06D0018        Audit of Saint Louis University’s Use of Professional     2/10/05       $1,458,584                6
                Judgment from July 2000 through June 2002 (SAR 50,
                page 21)

                Current Status: FSA informed us that it is waiting on
                Secretary’s decision on the school’s appeal of this
                audit, which pertains to a Professional Judgment
                finding.

OCFO

A09H0020        California Department of Education Advances of             3/9/09        $728,6512                10
                Federal Funding to LEAs (SAR 58, page 31)

                Current Status: OCFO informed us that it is currently
                working to resolve this audit.


                                                                             Office of Inspector General Semiannual Report   45
                                                                                            Total
                                           Report Title                         Date                      Number of
Report Number                                                                             Monetary
                                  (Prior SAR Number and Page)                  Issued                  Recommendations
                                                                                          Findings

ODS

A02K0005             Use of Recovery Act Funds and Reporting in Wisconsin      9/29/10                        7
                     (OSERS also designated as an action official)
                     (SAR 61, page 33)

                     Current Status: ODS/ISU and OESE joint PDL was
                     issued on 5/10/2012. OSERS/OSEP informed us that it
                     is developing a PDL.

A02K0009             Milwaukee Public Schools: Use of Funds and Data           4/21/11                        4
                     Quality for Selected Recovery Act Programs (OESE and
                     OSERS are also designated as action officials) (SAR 63,
                     page 36)

                     Current Status: ODS/ISU and OESE joint PDL was
                     issued on 5/10/2012. OSERS/OSEP informed us that it
                     is developing a PDL.

A05J0012             Systems of Internal Control Over Selected Recovery        2/23/10                        4
                     Act Funds in the State of Illinois (OSERS also
                     designated as an action official) (SAR 60, page 40)

                     Current Status: OCFO/Post Audit Group (PAG) PDL
                     was issued on 4/26/2011. ODS/ISU and OESE joint PDL
                     was issued on 3/30/2012. OSERS/OSEP informed us
                     that it is developing a PDL.

A06K0001             Systems of Internal Control Over Selected Recovery        9/29/10                        8
                     Act Funds in Louisiana (OSERS also designated as an
                     action official) (SAR 61, page 34)

                     Current Status: ODS/ISU and OESE joint PDL was
                     issued on 8/17/2012. OSERS/RSA PDL was issued on
                     4/19/2011. OSERS/OSEP informed us that it is
                     developing a PDL.

A06K0002             Oklahoma: Use of Funds and Data Quality for Selected      2/18/11   $16,150,803         10
                     Recovery Act Programs (OESE and OSERS are also
                     designated as action officials) (SAR 62, page 25)

                     Current Status: OCFO/PAG PDL was issued on
                     9/21/2012. OESE PDL was issued on 9/25/2012.
                     ODS/ISU informed us that a draft PDL is currently
                     under review. OSERS/OSEP informed us that it is
                     developing a PDL.

A07K0002             Missouri: Use of and Reporting on Selected Recovery       6/7/11                         4
                     Act Program Funds (OCFO and OESE are also
                     designated as action officials) (SAR 63, page 36)

                     Current Status: ODS/ISU and OESE joint PDL was
                     issued on 4/30/2012. OCFO informed us that it is
                     currently working to resolve this audit.




46   Office of Inspector General Semiannual Report
                                                                                           Total
                                     Report Title                            Date                           Number of
Report Number                                                                            Monetary
                            (Prior SAR Number and Page)                     Issued                       Recommendations
                                                                                         Findings

A09J0006        State and Local Controls over Recovery Act Funds in         1/15/10                                7
                California (OCFO and OSERS also designated as action
                officials) (SAR 60, page 40)

                Current Status: OCFO/PAG PDL was issued on
                7/16/2010. ODS/ISU and OESE joint PDL was issued on
                9/20/2012. OSERS/OSEP informed us that it is
                developing a PDL.

A09K0001        Utah: Use of Funds and Data Quality for Selected            5/13/11       $62,111                 16
                Recovery Act Programs (OESE and OSERS are also
                designated as action officials) (SAR 63, page 37)

                Current Status: OCFO/PAG PDL was issued on
                1/4/2012. ODS/ISU informed us that a draft PDL is
                currently under review. OSERS/OSEP informed us that
                it is developing a PDL.

A09K0002        California: Use of Funds and Data Quality for Selected      4/28/11       $23,407                  9
                Recovery Act Programs (OESE and OSERS are also
                designated as action officials) (SAR 63, page 37)

                Current Status: OESE and ODS/ISU joint PDL was
                issued on 4/20/2012. OSERS/OSEP informed us that it
                is developing a PDL.

A19J0001        Department’s Implementation of the State Fiscal             9/24/10                                4
                Stabilization Fund Program (SAR 61, page 34)

                Current Status: ODS/ISU informed us that it is
                currently working to resolve this audit.

OESE

A02J0002        Camden City Public School District’s Administration of      6/6/11      $15,057,565               15
                Federal Education Funds (OSERS is also designated as
                an action official) (SAR 63, page 37)

                Current Status: OESE informed us that a draft PDL is
                currently under review. OSERS/OSEP informed us
                that it is developing a PDL.

A02J0009        New York State LEAs Systems of Internal Control Over        2/17/10                               16
                Recovery Act Funds (SAR 60, page 39)

                Current Status: OESE informed us that a PDL was
                issued on 5/14/12. OSERS/OSEP informed us that it is
                developing a PDL.

A02K0003        Kiryas Joel Union Free School District Title I, Part A of   2/2/11       $467,5673                 5
                the Elementary and Secondary Education Act of 1965,
                as amended (ESEA), and IDEA Part B Expenditures
                (SAR 62, page 25)

                Current Status: OESE informed us that a draft PDL is
                currently under review.




                                                                              Office of Inspector General Semiannual Report   47
                                                                                            Total
                                           Report Title                         Date                       Number of
Report Number                                                                             Monetary
                                  (Prior SAR Number and Page)                  Issued                   Recommendations
                                                                                          Findings

A03G0006             The Department’s Administration of Selected Aspects       2/22/07                         3
                     of the Reading First Program (OCFO also designated
                     as an action official) (SAR 54, page 31)

                     Current Status: OESE informed us that it is currently
                     working to resolve this audit.

A03H0010             Philadelphia School District’s Controls Over Federal      1/15/10   $138,769,898         27
                     Expenditures (OSERS, Office of Safe and Drug Free
                     Schools (OSDFS), and Office of Postsecondary
                     Education (OPE) also designated as action officials)
                     (SAR 60, page 39)

                     Current Status: OESE informed us that a PDL was
                     issued on 9/29/11. OSERS/OSEP informed us that a
                     PDL was issued on 9/29/2011. However, the
                     documents required for resolution of this audit are
                     needed in Audit Accountability and Resolution
                     Tracking System.

A04H0011             Puerto Rico Department of Education’s Administration      5/20/08    $189,011            10
                     of Contracts Awarded to Excellence in Education, Inc.
                     and the University of Puerto Rico’s Cayey Campus
                     (SAR 57, page 26)

                     Current Status: OESE informed us that a draft PDL is
                     currently under review.

A04H0017             Puerto Rico Department of Education’s Administration      10/9/08    $821,714            15
                     of Title I Services Provided to Private School Students
                     (SAR 58, page 31)

                     Current Status: OESE informed us that a draft PDL is
                     currently under review.

A04I0042             Virgin Islands Department of Education’s                  8/17/09      $4,304            10
                     Administration of Property Purchased with Federal
                     Funds (SAR 59, page 42)

                     Current Status: OESE informed us that a draft PDL is
                     currently under review. OSERS/OSEP informed us
                     that it is developing a joint PDL with OESE .

A04J0005             Puerto Rico Department of Education’s Award and           1/24/11   $15,194,468          10
                     Administration of Personal Services Contracts (Office
                     of Vocational and Adult Education (OVAE), OSDFS, and
                     Risk Management Services (RMS) are also designated
                     as action officials) (SAR 62, page 25)

                     Current Status: OESE informed us that a draft PDL is
                     currently under review. OVAE informed us that it is
                     currently working to resolve this audit.

A04K0005             South Carolina: Use of Funds and Data Quality for         4/20/11                         9
                     Selected Recovery Act Programs (OSERS is also
                     designated as an action official) (SAR 63, page 37)

                     Current Status: OESE informed us that a PDL was
                     issued on 7/30/12. OSERS/OSEP informed us that it is
                     developing a PDL.



48   Office of Inspector General Semiannual Report
                                                                                            Total
                                      Report Title                           Date                            Number of
Report Number                                                                             Monetary
                             (Prior SAR Number and Page)                    Issued                        Recommendations
                                                                                          Findings

A05H0010         The School District of the City of Detroit’s Use of       7/18/08      $53,618,859                21
                 Title I, Part A Funds Under the ESEA (SAR 57, page 26)

                 Current Status: OESE informed us that a draft PDL is
                 currently under review.

A05K0005         Illinois: Use of Funds and Data Quality for Selected       6/9/11        $22,4984                  8
                 Recovery Act Programs (ODS/ISU, OESE, and OSERS are
                 also designated as action officials) (SAR 63, page 36)

                 Current Status: OESE and ODS/ISU joint PDL was
                 issued on 8/21/2012. OCFO/PAG PDL was issued on
                 12/5/2011. OSERS/OSEP informed us that it is
                 developing a PDL.

A06G0009         Audit of the Temporary Emergency Impact Aid for           9/18/07      $10,270,000                 4
                 Displaced Students Requirements at the Texas
                 Education Agency and Applicable LEAs
                 (SAR 55, page 29)

                 Current Status: OESE informed us that a draft PDL is
                 currently under review.

A06G0010         Louisiana Department of Education’s Compliance with       9/21/07       $6,303,000                 4
                 Temporary Emergency Impact Aid for Displaced
                 Students Requirements (SAR 55, page 29)

                 Current Status: OESE informed us that draft PDL is
                 currently under review .

A06H0011         Adequacy of Fiscal Controls Over the Use of Title I,      4/14/09       $3,524,636                 6
                 Part A Funds at Dallas Independent School District
                 (SAR 59, page 42)

                 Current Status: OESE informed us that a draft PDL is
                 currently under review. OSERS/OSEP informed us that
                 it is developing a PDL.

Office of Planning, Evaluation & Policy Development (OPEPD)

A04J0003         Georgia Department of Education’s Controls Over            4/7/10                                  9
                 Performance Data Entered in EDFacts (OSDFS, OESE,
                 and OSERS also designated as action officials) (SAR 61,
                 page 34)

                 Current Status: OPEPD informed us that a PDL was
                 issued on 2/13/11. OSERS/OSEP informed us that it is
                 currently working to resolve this audit.

OSERS

A04K0001         Systems of Internal Controls over Selected Recovery       12/16/10      $2,051,000                16
                 Act Funds in Puerto Rico (OCFO, OESE and OSERS are
                 also designated as action officials) (SAR 62, page 25)

                 Current Status: OESE and ODS/ISU joint PDL was
                 issued on 7/26/2012. OSERS/OSEP informed us that it
                 is developing a PDL.




                                                                              Office of Inspector General Semiannual Report   49
                                                                                                         Total
       Report                                Report Title                                  Date                           Number of
                                                                                                       Monetary
       Number                       (Prior SAR Number and Page)                           Issued                       Recommendations
                                                                                                       Findings

A06K0003               Louisiana: Use of Funds and Data Quality for Selected             4/11/11       $388,815                  5
                       Recovery Act Programs (OESE and ODS are also
                       designated as action officials) (SAR 63, page 37)

                       Current Status: OESE and ODS/ISU joint PDL was
                       issued on 9/28/2012. OSERS/OSEP informed us that it
                       is developing a PDL.

REPORTED IN PREVIOUS SARs

INSPECTION REPORTS

Office of the General Counsel (OGC)

I13I0004               Inspection to Evaluate the Adequacy of the                        4/21/08                                 2
                       Department’s Procedures in Response to Section 306
                       of the FY 2008 Appropriations Act—Maintenance of
                       Integrity and Ethical Values Within the Department
                       (OGC was designated as the action official by OS)
                       (SAR 57, page 27)

                       Current Status: OGC informed us that it is currently
                       working to resolve this audit.

Total                                                                                                $352,291,121               385

1
     Audit Report A02K0014 figure includes $316,183 of questioned costs and $1,269,021 of unsupported costs.
2
     Audit Report A09H0020 identified $728,651 in other recommended recoveries, $13,000,000 in annual better use of funds, and no
     questioned costs.
3
     Audit report A02K0003 identified an annual better use of funds in the amount of $5.2 million.
4
     Audit report A05K0005 figure includes $10,000 of “monetary recoveries” made during the audit and $5,728 of unsupported costs.




50     Office of Inspector General Semiannual Report
Table 5-B: Summaries of Audit, Inspection, and Evaluation Reports Issued
           During the Previous Reporting Period Where Management
           Decision Has Not Yet Been Made
Section 5(a)(10) of the IG Act, as amended, requires a summary of each audit, inspection, or evaluation report
issued before the commencement of the reporting period for which no management decision has been made by
the end of the reporting period. These are the narratives for new entries. Details on previously issued reports
can be found in Table 5-A of this Semiannual Report.

Report Title, Number, and
                                                                          Summary
       Date Issued

Elementary, Secondary, and Special Education Program-Related

Camden City Public School      We found that the Camden City Public School District (Camden) did not always comply with
District’s Administration of   applicable laws and regulations for the expenditures we reviewed. Specifically, Camden’s
Non-Salary Federal             accounting system did not accurately reflect its ESEA expenditures for FYs 2007 and 2008; it
Education Funds                improperly charged about $373,000 in ESEA expenditures; it lacked supporting documentation
                               for nearly $1.4 million in expenditures; it did not have an adequate inventory system to
ED/OIG: A02K0014               ensure that it properly managed equipment it purchased with ESEA funds; and it did not
                               properly procure goods and services for purchases that exceeded the statutory bid threshold
Issued: 3/6/2012               as required by State law.

                               Current Status: OESE informed us that it is in the process of developing a PDL.

Alabama: Use of Funds and      We identified internal control weaknesses related to the Alabama State Department of
Data Quality for Selected      Education’s (ALSDE) award of Recovery Act funds to LEAs, cash management, and reporting
American Recovery and          requirements. ALSDE did not have sufficient controls in place to ensure that its School
Reinvestment Act Programs      Improvement Grant (SIG) award selection process was fair and equitable, as we identified an
                               apparent conflict of interest. Specifically, we found that the participation of ALSDE’s Federal
ED/OIG: A04K0007               Programs Director in the award process resulted in an apparent conflict of interest because
                               her husband’s company was listed in three LEA applications as a provider of SIG services. All
Issued: 2/15/2012              three of the LEAs were awarded SIG funds, totaling some $10 million for services provided by
                               her husband’s company. We also found scoring discrepancies in the documentation supporting
                               the SIG selection process and noted that some scoring information was missing. As a result,
                               ALSDE may have awarded SIG funds to LEAs that would not have been otherwise selected to
                               receive the funds. ALSDE also erroneously made a duplicate transfer of Recovery Act IDEA
                               funds to the Mobile Public School District, resulting in an improper payment of $1.4 million.
                               In addition, we found that ALSDE did not report accurate expenditure, vendor payment, and
                               job data in accordance with Recovery Act reporting requirements.

                               Current Status: OESE and ODS/ISU joint PDL was issued on 4/26/2012. OSERS/OSEP informed
                               us that it is developing a PDL. .

Saint Mary-of-the-Woods        We found that the school was not eligible to participate in those programs and had not been
College’s Administration of    eligible since at least July 2005 because 50 percent or more of its students were enrolled in
the Title IV Programs          correspondence courses. Therefore, the college received more than $42 million that it was
                               not eligible to receive. According to Section 102(a)(3)(B) of the HEA, an institution is not
ED/OIG: A05K0012               eligible to participate in the Title IV programs if 50 percent or more of its students were
                               enrolled in correspondence courses during its latest complete award year. The college
Issued: 3/29/2012              considered its programs to be offered in either on-campus or telecommunications (distance
                               education) formats and did not consider any of its programs to be offered through
                               correspondence. We also identified instances of noncompliance with HEA requirements
                               governing award calculations, student eligibility, disbursements, and return of Title IV aid.
                               Specifically, the college incorrectly calculated Title IV awards for students enrolled in
                               correspondence courses; could not provide documentation supporting its cost of attendance
                               budgets; improperly disbursed Title IV funds to students who should not have received the
                               funds; did not return all Title IV funds for students who never began attendance; did not
                               return the proper amounts of Title IV funds for students who unofficially withdrew; and did
                               not provide required notifications for disbursements of Title IV funds or provide timely Federal
                               Family Education Loan Program exit counseling.

                               Current Status: FSA informed us that it is currently working to resolve this audit.


                                                                                 Office of Inspector General Semiannual Report   51
Table 6: Statistical Profile: Fiscal Year 2012
         (October 1, 2011, through September 30, 2012)
                                                           October 1, 2011–      April 1, 2012–
               Audits, Inspections, Other Products                                                 Fiscal Year 2012
                                                            March 31, 2012    September 30, 2012

Audit Reports Issued                                             13                   8                  21

Inspection Reports Issued                                         2                   2                   4

Recommendations for Better Use of Funds                          $0                   $0                 $0

Other Products Issued                                             4                   0                   4

Reports Resolved By Program Managers                             20                   22                 42

Questioned Costs (Including Unsupported Costs) Sustained     $256,097,686        $20,443,001        $276,540,687

Unsupported Costs Sustained                                  $124,413,844        $16,825,436        $141,239,280

Additional Disallowances Identified by Program Managers        $97,429            $2,469,045         $2,566,474

Management Commitment to the Better Use of Funds                 $0                   $0                 $0

Investigative Cases Opened                                       68                   37                 105

Investigative Cases Closed                                       75                   63                 138

Cases Active at the End of the Reporting Period                  432                 402                 402

Prosecutorial Decisions
    Accepted                                                     52                   59                 111
    Declined                                                     34                   22                 56

Indictments/Informations                                         64                   69                 133

Convictions/Pleas                                                52                   81                 133

Fines Ordered                                                  $320,078              $300             $322,6291

Restitution Payments Ordered                                  $7,559,928          $7,349,472         $14,960,8582

Civil Settlements/Judgments (number)                              2                   4                   6

Civil Settlements/Judgments (amount)                          $1,475,000          $9,008,300         $10,483,300

Recoveries                                                    $4,556,524          $5,683,667         $11,366,7863

Forfeitures/Seizures                                          $1,044,233           $406,707          $2,337,8074

Estimated Savings                                             $1,010,636         $21,988,219         $29,026,8565

Suspensions Referred to Department                                6                   27                 33

Debarments Referred to Department                                22                   16                 38

1
     Includes $2,251 not included in SAR 64.
2
     Includes $51,458 not included in SAR 64.
3
     Includes $1,126,595 not included in SAR 64.
4
     Includes $886,867 not included in SAR 64.
5
     Includes $6,028,001 not included in SAR 64.


52     Office of Inspector General Semiannual Report
          Abbreviations and Acronyms Used in This Report
ALSDE              Alabama State Department of Education
CIGIE              Council of Inspectors General on Integrity and Efficiency
CIL                Centers for Independent Living
CTU                Colorado Technical University
Department         U.S. Department of Education
DOJ                U.S. Department of Justice
EDCAPS             Department of Education Central Automated Processing System
Ed Jobs            Education Jobs Fund
EDUCATE            Education Department Utility for Communications, Applications, and Technology Environment
ESEA               Elementary and Secondary Education Act of 1965, as Amended
ESF                State Fiscal Stabilization Fund, Education Stabilization Fund
FSA                Federal Student Aid
FY                 Fiscal Year
HEA                Higher Education Act of 1965, as Amended
HUD                Department of Housing and Urban Development
IDEA               Individuals With Disabilities Education Act
IG Act             Inspector General Act of 1978, as Amended
ISU                Implementation and Support Unit
LEA                Local Educational Agency
OCFO               Office of the Chief Financial Officer
OCIO               Office of the Chief Information Officer
ODS                Office of the Deputy Secretary
OESE               Office of Elementary and Secondary Education
OGC                Office of the General Counsel
OIG                Office of Inspector General
OII                Office of Innovation and Improvement
OMB                Office of Management and Budget
OPEPD              Office of Planning, Evaluation and Policy Development
OPE                Office of Postsecondary Education
OS                 Office of the Secretary
OSDFS              Office of Safe and Drug Free Schools
OSEP               Office of Special Education Programs
OSERS              Office of Special Education and Rehabilitative Services
OVAE               Office of Vocational and Adult Education
PAG                Post Audit Group
PDL                Program Determination Letter
PRDE               Puerto Rico Department of Education
Recovery Act       American Recovery and Reinvestment Act of 2009
Recovery Board     Recovery Accountability and Transparency Board
RMS                Risk Management Services
RSA                Rehabilitation Services Administration
SAR                Semiannual Report
SEA                State Educational Agency
SIG                School Improvement Grant
SIGTARP            Special Inspector General for the Troubled Asset Relief Program


                                                                      Office of Inspector General Semiannual Report   53
FY 2012 Management Challenges
The Reports Consolidation Act of 2000 requires the OIG to identify and summarize the most significant
management challenges facing the Department each year. Below are the management challenges OIG
identified for FY 2012.

       1. Improper Payments, meeting all new requirements and intensifying efforts to prevent, identify,
       and recapture improper payments.

       2. Information Technology Security, including management, operational, and technical security
       controls to adequately protect the confidentiality, integrity, and availability of its systems and data.

       3. Oversight and Monitoring, including Federal student aid program participants, distance education,
       Recovery Act, grantees, and contractors.

       4. Data Quality and Reporting, including program data and Recovery Act reporting requirements.

For a copy of our FY 2012 Management Challenges report, visit our Web site at www.ed.gov/oig.
Anyone knowing of fraud, waste, or abuse involving U.S. Department
of Education funds or programs should contact the Office of
Inspector General Hotline:

http://www2.ed.gov/about/offices/list/oig/hotline.html

We encourage you to use the automated complaint form on our Web
site; however, you may call or write the Office of Inspector General.

Inspector General Hotline                Call Toll-Free:
U.S. Department of Education             Inspector General Hotline
Office of Inspector General              1-800-MISUSED
400 Maryland Ave., S.W.                  (1-800-647-8733)
Washington, D.C. 20202


Your report may be made anonymously.

The Department of Education’s mission is to promote student
achievement and preparation for global competitiveness by
fostering educational excellence and ensuring equal access.

www.ed.gov
